<html>
<title> - CURRENT WATER AND POWER BILLS</title>
<body><pre>[Senate Hearing 110-170]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-170
 
                     CURRENT WATER AND POWER BILLS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

     S. 1054                               S. 1472

     S. 1475                               H.R. 30

    H.R. 122                              H.R. 609

    H.R. 1175                             H.R. 1526



                              __________

                             AUGUST 1, 2007

                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE

38-512 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  TIM JOHNSON, South Dakota, Chairman

BYRON L. DORGAN, North Dakota        BOB CORKER, Tennessee
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
JON TESTER, Montana                  JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Atwater, Richard, General Manager and CEO, Inland Empire 
  Utilities District.............................................    14
Darling, Gary, General Manager, Delta Diablo Sanitation District, 
  Antioch, CA....................................................    20
Edwards, Hon. Chet, U.S. Representative From Texas...............     2
Feinstein, Hon. Dianne, U.S. Senator From California.............     3
Groth, Larry, City Manager, Waco, TX.............................    26
Long, Bill, Chairman, North Bay Water Reuse Authority............    30
Record, Randy, Board Member, Eastern Municipal Water District....    23
Tester, Hon. Jon, U.S. Senator From Montana......................     1
Todd, Larry, Deputy Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................     5

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    47


                     CURRENT WATER AND POWER BILLS

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2007

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jon Tester, 
presiding.

OPENING STATEMENT OF HON. JON TESTER, U.S. SENATOR FROM MONTANA

    Senator Tester. I'll call the hearing before the Water and 
Power Subcommittee to order. It's my pleasure to welcome 
everybody here. This afternoon's hearing--a special welcome to 
you, Chairman Edwards--we have two panels of witnesses here 
today. Several have traveled across the country to provide us 
with their views. I want to thank you all for your efforts.
    The bills before us today all seek assistance from the 
Federal Government Bureau of Recs Title XVI Water Reuse and 
recycling Program. The include the following: S. 1054 and H.R. 
122 authorize Reclamation's participation in two water 
recycling projects in the San Bernardino County, California; 
the second one is S. 1472, authorizing Federal support for the 
North Bay Water Reuse Program in Northern California; the third 
on, S. 1474, H.R. 1526, authorizing support for the Bay Area 
Regional Water Recycling Program, it's in the San Francisco 
area; the fourth one, H.R. 30, authorizing Reclamation's 
assistance with the expansion of a recycled water project in 
Riverside County, California; fifth, H.R. 1175, authorizing an 
increase in the cost ceiling for water reuse projects in Orange 
County, California; and last, H.R. 609, sponsored by 
Representative--Chairman Edwards, who is with us here today, 
which would authorize Reclamation's participation in water 
recycling project in Central Texas.
    Before we get started, I'd like to quickly note that, 
although we don't have any Title XVI projects in Montana, we do 
have our fair share of water issues, including drought, climate 
change, and competing demands, all contribute to the growth, 
and the amount of pressure on our finite water resources.
    Increasing the efficient use of water is a key to meeting 
our future demands, there's no question about that, and Title 
XVI appears to be a valuable program from that standpoint.
    Although water is primarily a State and local 
responsibility, it is important for the Federal Government to 
be a constructive partner in addressing the water-related 
challenges before us. Title XVI seems to meet that test, and 
notwithstanding the Administration's opposition to the bills 
before us, we'll press forward, and continue to support those 
projects that prove to make sense from a technical, economical, 
and environmental perspective.
    With that, since the committee is loaded with people, we 
will go right to Chairman Edwards to make his statement, and 
then we'll proceed, proceed on.
    So, Chairman Edwards, thank you for being here today, and 
please go ahead with your statement.

 STATEMENT OF HON. CHET EDWARDS, U.S. REPRESENTATIVE FROM TEXAS

    Mr. Edwards. Chairman Tester, thank you very much. While 
the committee room may not be full, I've learned in my time 
here in the Congress, one member of the Senate with a 
conscience and the title Mr. Chairman can do an awful lot of 
good.
    That's why I consider it a personal privilege to have your 
time, and to be able to testify before you, sir.
    I want to thank you, Mr. Chairman, for your leadership, 
your personal leadership, in seeing that our Nation uses its 
natural resources in a responsible way. With your help, we want 
you see that my home town of Waco, Texas, and surrounding 
communities are part of that effort.
    Specifically, H.R. 609, the Central Texas Water Recycling 
Reuse Act, would allow a region that is a key part of our 
Nation's trade and transportation corridor, to use highly 
treated wastewater--rather than drinking water--for industrial 
uses, and irrigation of parks and recreation areas.
    I want to extend a special thanks to my colleague, Senator 
Hutchison, for her sponsorship on the Senate side of the 
Capitol, of this bill.
    With our city's location on Interstate 35, Mr. Chairman, 
which is a key part of the Canada-Mexico-U.S. trade corridor, 
Central Texas is realizing significant population growth, and 
will for the years ahead.
    Add to that the warm climate, and 100 degree days, which 
are typical in July and August, along with serious droughts in 
recent years, one can easily see why water reuse will be 
crucial for our area's future.
    Mr. Chairman, our communities have made a personal 
financial commitment to this project, a major commitment, and I 
appreciate your focus that water issues should, predominantly, 
be local and State responsibility, and that's why I'm proud 
that our community has bellied up to the bar, and committed 
millions of dollars for this project.
    But today, we join with you in asking for a partnership 
with the Federal Government to expand these important efforts 
in water reuse. It is my pleasure, and privilege, to introduce 
to you, the Waco City Manager, Larry Groth.
    Mr. Groth, a friend of mine, has been an outstanding leader 
for our community, and it is his vision, hard work, and 
tenacity that have led to the passage of H.R. 609 in the House.
    Thank you, Mr. Chairman, for your time.
    Senator Tester. I appreciate that. Mayor Groth is here?
    Mr. Edwards. It's City Manager, Larry Groth, from the city 
of Waco.
    Senator Tester. Welcome. Good to have you here.
    Mr. Edwards. Thank you.
    Senator Tester. Chairman Edwards, thank you very much for 
your time. I appreciate your comments very, very much. With 
that, do you have any further comments?
    Mr. Edwards. No, sir.
    Senator Tester. It's not on the agenda, but Mayor, do you 
have anything you'd like to say?
    Mr. Groth. Yes, sir, if I may.
    Senator Tester. OK.
    Mr. Groth. Good afternoon, my name is Larry Groth. I'm City 
Manager for the city of Waco.
    Senator Tester. Yes.
    Mr. Groth. I'm here to testify in support of H.R. 609, if 
that's satisfactory.
    Senator Tester. You are on the next panel. So, we will hold 
off, and I will thank Chairman Edwards for being here. I 
appreciate your proactivity on these issues, and I appreciate 
you coming to the hearing today.
    Mr. Edwards. Thank, thank you, Mr. Chairman.
    Senator Tester. While the next panel comes up, which 
consists of Larry Todd, and we'll get you next, Deputy 
Commissioner, Bureau of Reclamation.
    While Larry is coming up, I would just ask unanimous 
consent, which I think will happen, that the comments by Dianne 
Feinstein, the Senator out of California, be attached to the 
hearing record.
    [The prepared statement of Senator Feinstein follows:]
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                               California
    I want to thank the Subcommittee--and you, Senator Tester--for 
holding this important subcommittee hearing to authorize several Bureau 
of Reclamation ``Title XVI'' water recycling projects in California and 
Texas. A year ago, this subcommittee held hearings on many of these 
bills. The imperative for passing them is greater today.
    According to Science Magazine this past April,

          . . . there is a broad consensus amongst climate models that 
        this region (Southwest US) will dry significantly in the 21st 
        Century and that the transition to a more and climate should 
        already be underway. If these models are correct, the levels of 
        aridity of the recent multiyear drought, or the Dust Bowl and 
        1950s droughts, will, within the coming years to decades, 
        become the new climatology of the American Southwest.

    The message is simple. Given that today's drought conditions are 
expected to become the typical water year in the decades to come, 
California must both use its existing water supplies more efficiently 
and it must stretch those supplies. That is precisely what the Bureau 
of Reclamation's Title XVI water recycling program does. The Bureau 
needs to make this a priority program, in California and across the 
entire West.
    Recycled water is not only an important strategy for adapting to 
climate change, it also is an excellent way to reduce our greenhouse 
gas emissions because it is so much less energy intensive than 
importing water supplies from other regions. One of the bills before 
you today involves an Inland Empire Utilities Agency recycled water 
program. This agency's recycled water programs are projected to reduce 
energy use by about 3,000 kilo-watt hours per acre-foot (kwh/af), 
according to a study prepared by Professor Robert Wilkinson, of the 
Bren School of Environmental Science and Management at the University 
of California, Santa Barbara, and author of the Methodology for 
Analysis of the Energy Intensity of California's Water Systems and An 
Assessment of Multiple Potential Benefits Through Integrated Water-
Energy Efficiency Measures (2000).
    These energy savings add up. If the projects in the five California 
water recycling bills before you are built, they will provide 
approximately 220,000 acre-feet per year of new water supply. This 
would reduce California's energy usage by about 75 megawatts per year 
and reduce our greenhouse gas emissions by about 220,000 tons of 
greenhouse gases in CO<INF>2</INF> equivalents per year. This is the 
same effect asremoving 38,000 cars per year from the road. (Source: EPA 
conversion factor).
    The reality of our current drought also points to the need for 
these water recycling projects. California is experiencing record dry 
conditions, the Colorado River at Lake Mead is down some 100 vertical 
feet and presently is at the lowest level it has been since it was 
dedicated by President Franklin Roosevelt in 1935. And, we now are 
hearing predictions that these droughts can last not just years but 
decades.
    Recycled water is a uniquely important source of water supply to 
our cities and states in the context of climate change because it is 
one of the few supplies that will be untouched by the lack of rainfall. 
In times when water is short, recycled water projects will still be 
producing the same amount of water year after year that can supply 
industries and irrigate parks, schools and play yards. By using 
recycled water for non-potable uses, we can stretch our drinking water 
supplies for the critical uses of supplying our homes and businesses.
    This means that recycled water is one of the most important new 
sources of supply for the Nation and especially that portion of the 
Nation called the ``arid West''. Furthermore, recycled water is a 
supply that is available to all of our communities, not just in the dry 
Southwest. Climate change will affect water supplies available in the 
rest of the country as well, and the projects that are being developed 
in Californiaare just the beginning of what can be done across the 
Nation.
    The Title XVI program--and the Federal participation--is often 
cited as the determining factor in the creation of local partnerships 
to support these projects. The Federal cost-sharing is limited to 25% 
and is as low as 10%-20% for many of the projects before you today (the 
Inland Empire Utilities Agency project seeks only a 10% federal cost-
share). We leverage limited Federal dollars to stretch limited water 
supplies throughout California.
    You will hear from representatives and community leaders on behalf 
of more than a dozen California water agencies on the following five 
bills:

  <bullet> S. 1054 and H.R. 122, to authorize the Secretary of the 
        Interior to participate in the Inland Empireregional recycling 
        project and in the Cucamonga Valley Water District recycling 
        project;
  <bullet> S. 1472, to authorize the Secretary of the Interior to 
        create a Bureau of Reclamation partnership with the North Bay 
        Water Reuse Authority and other regional partners to achieve 
        objectives relating to water supply, water quality, 
        andenvironmental restoration;
  <bullet> S. 1475 and H.R. 1526, to amend the Reclamation Wastewater 
        and Groundwater Study and Facilities Act to authorize the Bay 
        Area Regional Water Recycling Program;
  <bullet> H.R. 30, to amend the Reclamation Wastewater and Groundwater 
        Study and Facilities Act to authorize the Secretary of the 
        Interior to participate in the Eastern Municipal Water District 
        Recycled Water System Pressurization and Expansion Project; and
  <bullet> H.R. 1175, to amend the Reclamation Wastewater and 
        Groundwater Study and Facilities Act to increase the ceiling on 
        the Federal share of the costs of phase I of the Orange County, 
        California, Regional Water Reclamation Project.

    I thank the Chairman again for holding this hearing, and hope the 
Committee speedily marks up these bills and reports them to the Senate 
floor.
    Thank you.

    Senator Tester. Yes, yes, yes. OK. Yes, before starting, 
there are additional statements that the subcommittee has 
received on several bills before us today. That testimony, as 
well as Senator Feinstein, as well as the written testimony of 
today's witnesses will be made a part of the official hearing 
record.
    Senator Tester. Larry Todd, who is Deputy Commissioner of 
the Bureau of Reclamation.
    Welcome, Larry. Please go ahead and provide a brief 
testimony--a brief summary of your testimony--and following 
that, we'll have a few questions, and we'll proceed to the 
second panel. Welcome.

    STATEMENT OF LARRY TODD, DEPUTY COMMISSIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Todd. Thank you, Mr. Chairman. I am Larry Todd, Deputy 
Commissioner with the Bureau of Reclamation. I'm pleased to be 
here today to provide testimony on S. 1054, S. 1472, S. 1475, 
H.R. 30, H.R. 609, and H.R. 1175.
    The projects authorized in the bills before us today could 
potentially provide a needed increase in localized water 
supply, and decrease dependence on imported water in California 
and Texas. S. 1472 would authorize the planning, design and 
construction of water reclamation and reuse projects and the 
North Bay Water Reuse Program.
    S. 1054, S. 1475, H.R. 20, H.R. 609, and H.R. 1175, would 
each amend the Reclamation Wastewater and Groundwater Study and 
Facilities Act, to include the Inland Empire, and Cucamonga 
Valley Water District Recycling projects, the Bay Area Regional 
Recycling Program, a Eastern Municipal Water District Recycled 
Water Project Expansion, a Central Texas Water Recycling and 
Reuse project, and Phase I of the Orange County Regional Water 
Reclamation project.
    While these goals of these bills are commendable and 
important, the Department has concerns about each, and thus 
cannot support any of the bills.
    The primary concern is that any new projects would compete 
for limited funds with other, previously authorized, projects. 
To date, there are 32 specific Title XVI projects authorized, 
21 of which have received some form of Federal funding. 
Reclamation is currently facing an estimated $328 million 
funding backlog for these projects, and the bills before us 
today would authorize an additional $132 million of projects.
    The President's Fiscal Year 2008 budget included $10.1 
million in funding for projects already underway. But with 
tight budgets, these funds compete directly with the needs of 
aging infrastructure and projects underway throughout the West, 
and it is difficult to provide the funding needed to eliminate 
this backlog.
    While budgetary concerns remain paramount, we believe 
feasibility studies should be completed prior to authorization, 
in order to fully assess the engineering realities and cost 
effectiveness of proposed projects.
    Except for S. 1054, studies are still needed for projects 
contained in these bills. Both projects in S. 1054 have 
completed feasibility requirements, and have been deemed 
feasible.
    Apart from feasibility and budgetary concerns, S. 1472 does 
not cite the Reclamation Wastewater and Groundwater Study and 
Facilities Act as the authority for the planning, design and 
construction of the project, and Reclamation is unclear as to 
whether this is a Title XVI bill.
    Title XVI projects have demonstrated that water recycling 
can be a viable water supply alternative, in water-short urban 
areas of the West. However, we have noted, and believe, that 
the Title XVI program has already achieved its original purpose 
of demonstrating new technology.
    Given tight budget constraints, it is particularly 
important that the Administration and the Congress identify the 
projects most worthy of Federal investment.
    While Reclamation cannot support the new water recycling 
project authorizations before us today, we understand that 
Title XVI is a living program in which the Federal role in 
assisting local construction is important, and well-
established.
    To that end, Reclamation has set about revising and 
improving its directives and standards that govern the Title 
XVI projects. By doing so, we believe that Reclamation can play 
a more constructive role with local sponsors, in weighing the 
merits, and ultimate feasibility of proposed water recycling 
products.
    A new revised draft of this document will go out for public 
review this month, and is expected to be finalized in late 
October.
    Mr. Chairman, thank you, again, for this opportunity to 
present testimony before the subcommittee, and I am available 
to answer any questions.
    [The prepared statements of Mr. Todd follow:]
    Prepared Statement of Larry Todd, Deputy Commissioner, Bureau of 
                Reclamation, Department of the Interior
                               on h.r. 30
    Mr. Chairman and Members of the Subcommittee, I am Larry Todd, 
Deputy Commissioner for Policy, Administration and Budget with the 
Bureau of Reclamation. I am pleased to be here today to give the 
Department's views on H.R. 30, the Eastern Municipal Water District 
Recycled Water System Pressurization and Expansion Project Act. The 
Department cannot support H.R. 30.
    In 1992, Congress adopted, and the President signed, the 
Reclamation Projects Authorization and Adjustment Act (Public Law 102-
575). Title XVI of this Act, the Wastewater and Groundwater Study and 
Facilities Act, authorized the Secretary to participate in the 
planning, design and construction of five water reclamation and reuse 
projects. The Bureau of Reclamation has been administering a grant 
program to fund these Title XVI projects since 1994, and the Act has 
been amended to authorize a total of 32 projects.
    H.R. 30 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.), to authorize the 
Secretary of the Interior to participate in the design, planning, and 
construction of improvements to the Eastern Municipal Water District's 
reclaimed water distribution system in Riverside County, California. It 
provides for Federal funding of 25 percent of the total project cost or 
$12 million, whichever is less.
    Eastern's five water reclamation plants currently produce about 
52,000 acre-feet per year. The reclaimed water is distributed by a 
gravity flow system primarily serving agricultural users. This project 
would create a pressurized distribution system suitable for municipal 
users, including at least four reservoir tanks of about 4 million 
gallons capacity each, with associated pipelines and pumping stations. 
The distribution system may also be expanded eastward to serve existing 
citrus groves. Project benefits include local drought protection and 
reduced dependence on imported water.
    Mr. Chairman, the Department supports efforts to increase local 
water supplies and increase recycled water use in southern California. 
However, given the costs of the currently active Title XVI projects, we 
cannot support the authorization of new projects at this time. Of the 
32 specific Title XVI projects authorized to date, 21 have received 
funding. The remaining estimated total authorized Federal cost share of 
these 21 active Title XVI projects is at least $328 million.
    Additionally, Reclamation is currently working with the District to 
review the technical work completed to date and to identify the 
additional work necessary to prepare a complete feasibility report 
meeting the feasibility requirements of Title XVI projects. However, 
because the technical studies are not complete, the feasibility and 
cost effectiveness of this project cannot be determined, as required by 
Title XVI.
    While Reclamation does not support new authorizations for Federal 
cost sharing of water recycling projects, we understand that the 
projects established by Title XVI are important to many water users in 
the West. To that end, Reclamation has set about revising and improving 
its Directives and Standards that govern reviews of Title XVI projects. 
By doing so, we believe that Reclamation can play a more constructive 
role with local sponsors in weighing the merits and ultimate 
feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 30. I would be happy to answer any 
questions at this time.
                              on h.r. 609
    Mr. Chairman and members of the Subcommittee, I am Larry Todd, 
Deputy Commissioner for Policy, Administration and Budget with the 
Bureau of Reclamation. I am pleased to present the views of the 
Department of the Interior on H.R. 609, concerning the Central Texas 
Water Recycling and Reuse Project in the State of Texas. The Department 
cannot support H.R. 609.
    H.R. 609 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575), to authorize the 
Secretary of the Interior, in cooperation with the City of Waco and 
other participating communities, to participate in the design, 
planning, and construction of permanent facilities to reclaim and reuse 
water in McLennan County, Texas. It also provides for Federal funding 
of 25 percent of the total project cost.
    Mr. Chairman, the Department supports efforts to increase local 
water supplies and increase recycled water use. However, given the 
costs of the currently active Title XVI projects, we cannot support the 
authorization of new projects at this time. Of the 32 specific Title 
XVI projects authorized to date, 21 have received funding. The 
remaining estimated total authorized Federal cost share of these 21 
active Title XVI projects is at least $328 million.
    In addition, the Administration does not support construction 
authorizations when a Feasibility Report has not been completed. These 
reports ensure that proposed projects are cost-effective, meet 
environmental compliance requirements, and are consistent with the 
overall objectives of the Title XVI program. Reclamation recently met 
with the local sponsor to discuss Federal funding under the Title XVI 
program, as well as appraisal and feasibility report requirements. 
Receipt of these reports would enable Reclamation to comment on the 
merits and determine the project's qualification for consideration of 
Federal funding.
    While Reclamation cannot currently support new water recycling 
project authorizations, we understand that the projects established by 
Title XVI are important to many water users in the West. To that end, 
Reclamation is in the process of improving its Directives and Standards 
that govern reviews of Title XVI projects. By doing so, we believe that 
Reclamation can work more closely with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Thank you for the opportunity to comment on H.R. 609. This 
concludes my statement and I would be happy to answer any questions.
                              on h.r. 1175
    Mr. Chairman and Members of the Subcommittee, I am Larry Todd, 
Deputy Commissioner for Policy, Administration and Budget with the 
Bureau of Reclamation. I am pleased to be here today to give the 
Department's views on H.R. 1175, a proposal to increase the federal 
share of the costs of Phase I of the Orange County, California, 
Regional Water Reclamation Project. The Department cannot support H.R. 
1175.
    H.R. 1175 would amend Section 1631(d) of Title XVI, the Reclamation 
Wastewater and Groundwater Study and Facilities Act, of Public Law 102-
575, the Reclamation Projects and Authorization Adjustment Act of 1992, 
to authorize the Secretary of the Interior to gradually increase the 
ceiling on the Federal share of the costs of Phase I to $51,874,849 by 
Fiscal Year 2016. As you are aware, current federal law limits the 
Federal share of individual project costs to 25 percent of the total, 
or a maximum federal contribution of $20 million.
    This project is being constructed in phases. When completed, the 
first phase will produce about 72,000 acre-feet per year of recycled 
water which will be used primarily to recharge the region's groundwater 
basin. Construction is currently on schedule for completion in November 
2007. Reclamation is currently authorized to participate in the first 
phase of the project, up to the ceiling of $20 million. Through Fiscal 
Year 2007, Reclamation will have spent approximately $17.4 million on 
Phase I leaving about $2.6 million in federal funds remaining to be 
provided. Of this, $1.5 million is included in the President's budget 
request for FY 2008.
    While the Department has funded and continues to support this local 
project, given the costs of other currently active Title XVI projects, 
we cannot support this $32 million increase in the authorized cost 
ceiling. Of the 32 specific Title XVI projects authorized to date, 21 
have received funding. The remaining estimated total authorized Federal 
cost share of these 21 active Title XVI projects is at least $328 
million. If this bill is enacted, it could increase pressure for higher 
federal contributions to other currently authorized projects, which 
would increase the burden on an already strained budget.
    While Reclamation does not support new authorizations or increasing 
the ceilings for Federal cost sharing of water recycling projects, we 
understand that the projects established by Title XVI are important to 
many water users in the West. To that end, Reclamation has set about 
revising and improving its Directives and Standards that govern reviews 
of Title XVI projects. By doing so, we believe that Reclamation can 
play a more constructive role with local sponsors in weighing the 
merits and ultimate feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on H.R. 1175. I would be happy to answer any 
questions at this time.
                               on s. 1054
    Mr. Chairman and Members of the Subcommittee, I am Larry Todd, 
Deputy Commissioner for Policy, Administration and Budget with the 
Bureau of Reclamation. I am pleased to be here today to give the 
Department's views on S. 1054, the Inland Empire Regional Water 
Recycling Initiative. The Department cannot support S. 1054.
    In 1992, Congress adopted, and the President signed, the 
Reclamation Projects Authorization and Adjustment Act (Public Law 102-
575). Title XVI of this Act, the Wastewater and Groundwater Study and 
Facilities Act, authorized the Secretary to participate in the 
planning, design and construction of five water reclamation and reuse 
projects. The Bureau of Reclamation has been administering a grant 
program to fund these Title XVI projects since 1994, and the Act has 
been amended to authorize a total of 32 projects.
    S. 1054 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (43 U.S.C. 390h et seq.), to authorize the 
Secretary of the Interior to participate in the design, planning, and 
construction of two water recycling projects located in San Bernardino 
County, California. The first project authorized in the bill is the 
Inland Empire Regional Water Recycling Project. This very large water 
recycling project located in the Chino Basin and sponsored by the 
Inland Empire Utilities Agency, involves at least five wastewater 
treatment plants and an extensive recycled water distribution system. 
In addition, the bill authorizes the Cucamonga Valley Water Recycling 
Project. This project, sponsored by the Cucamonga Valley Water 
District, consists of two satellite wastewater treatment plants and 
associated recycled water distribution systems, located in Rancho 
Cucamonga.
    The Federal cost share of the Inland Empire and Cucamonga Water 
Recycling Projects would not exceed 25 percent, and appropriations of 
$20 million and $10 million, respectively, are authorized.
    Mr. Chairman, the Department supports efforts to increase local 
water supplies and increase recycled water use in southern California. 
The Inland Empire Utilities Agency and the Cucamonga Valley Water 
District each submitted a feasibility study on their respective 
projects. Reclamation has reviewed both feasibility studies, and 
compared the documents to the elements of a complete feasibility study 
as defined in the ``Guidelines for Preparing, Reviewing, and Processing 
Water Reclamation and Reuse Projects under Title XVI of Public Law 102-
575, as Amended.'' Reclamation found that both reports were complete, 
and met all the elements, and therefore have been deemed feasible.
    While we recognize the local sponsors for the work they have done 
on these important projects, given the costs of the currently active 
Title XVI projects, we do not support the authorization of new projects 
at this time. Of the 32 specific Title XVI projects authorized to date, 
21 have received funding. The remaining estimated total authorized 
Federal cost share of these 21 active Title XVI projects is at least 
$328 million.
    While Reclamation does not support new authorizations for Federal 
cost sharing of water recycling projects, we understand that the 
projects established by Title XVI are important to many water users in 
the West. To that end, Reclamation has set about revising and improving 
its Directives and Standards that govern reviews of Title XVI projects. 
By doing so, we believe that Reclamation can play a more constructive 
role with local sponsors in weighing the merits and ultimate 
feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. Thank you for the 
opportunity to comment on S. 1054. I would be happy to answer any 
questions at this time.
                               on s. 1472
    Mr. Chairman and members of the subcommittee, I am Larry Todd, 
Deputy Commissioner for Policy, Administration and Budget with the 
Bureau of Reclamation. I am pleased to provide the Department of 
Interior's views on S. 1472, the North Bay Water Reuse Program Act of 
2007. The Department cannot support S. 1472.
    S. 1472 would authorize the planning, design, and construction of 
water reclamation and reuse projects in the North Bay Water Reuse 
Program. S. 1472 would require the project be constructed in two 
phases, the first phase being the main treatment and main conveyance 
system, and the second phase being the sub-regional distribution 
system.
    Mr. Chairman, the Department supports efforts to increase local 
water supplies and increase recycled water use. However, given the 
costs of the currently active Title XVI projects, we cannot support the 
authorization of new projects at this time. Of the 32 specific Title 
XVI projects authorized to date, 21 have received funding. The 
remaining estimated total authorized Federal cost share of these 21 
active Title XVI projects is at least $328 million.
    In addition, the Administration does not support construction 
authorizations when a Feasibility Report has not been completed. From 
Fiscal Year 2003 through 2006, Congress appropriated a total of $1.25 
million for feasibility investigations to the Sonoma County Water 
Agency to determine if the project has engineering and economic 
feasibility. The Agency also studied whether the project proponents 
have financial capability, and evaluated the environmental effects of 
the project, in accordance with the Bureau of Reclamation's guidelines 
for Title XVI.
    In December 2006, the Sonoma County Water Agency submitted a draft 
report that covered a portion of the information required for a 
feasibility determination. In April 2007, Reclamation provided comments 
on the report and also reminded the Sonoma County Water Agency that the 
environmental and economic information still needs to be submitted in 
order for Reclamation to complete the feasibility determination.
    Apart from this consideration, S. 1472 contains unclear 
authorization language. As introduced, the legislation does not cite 
the Reclamation Wastewater and Groundwater Study and Facilities Act 
(Public Law 102-575, Title XVI), as the authority for the planning, 
design, and construction of the project. Therefore, it is unclear if 
the intent of S. 1472 is to authorize the North Bay Water Reuse Program 
as a Title XVI project. If it is not the intent, then the feasibility 
study referenced above would need to meet the requirements of the of 
the Economic and Environmental Principles and Guidelines for Water and 
Related Land Resources Implementation Studies, also known as the 
Federal P&Gs for water resource development. Either way, it is 
premature to authorize the North Bay Water Reuse Program for 
construction before a feasibility study has been approved.
    While Reclamation does not support new authorizations for Federal 
cost sharing of water recycling projects, we understand that the 
projects established by Title XVI are important to many water users in 
the West. To that end, Reclamation has set about revising and improving 
its Directives and Standards that govern reviews of Title XVI projects. 
By doing so, we believe that Reclamation can play a more constructive 
role with local sponsors in weighing the merits and ultimate 
feasibility of proposed water recycling projects.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions.
                               on s. 1475
    Mr. Chairman and members of the subcommittee, I am Larry Todd, 
Deputy Commissioner for Policy, Administration and Budget with the 
Bureau of Reclamation. I am pleased to be here today to provide the 
Department of the Interior's views on S. 1475, the Bay Area Regional 
Water Recycling Program Authorization Act. The Department does not 
support S. 1475.
    S. 1475 would amend the Reclamation Wastewater and Groundwater 
Study and Facilities Act (Public Law 102-575, 43 U.S.C. 390h et seq.) 
to include authorization for construction of seven new projects. These 
new projects are the Mountain View Moffett Area Reclaimed Water 
Pipeline Project; the Pittsburg Recycled Water Project; the Antioch 
Recycled Water Project; the North Coast County Water District Recycled 
Water Project; the Redwood City Recycled Water Project; the South Santa 
Clara County Recycled Water Project; and the South Bay Advanced 
Recycled Water Treatment Facility. The Federal share of the costs to 
implement each of the seven new Title XVI projects would not exceed 25 
percent. S. 1475 also establishes a Federal cost ceiling for each of 
the seven new projects, collectively totaling $27.5 million.
    Of the 32 specific Title XVI projects authorized to date, 21 have 
received funding. The remaining estimated total authorized Federal cost 
share of these 21 active Title XVI projects is at least $328 million. 
Given the costs of the currently active Title XVI projects, we do not 
support the authorization of new projects at this time.
    I would like to briefly describe the status of these projects, most 
of which are already under review by Reclamation's Regional and Area 
Office staff. Of the seven projects providing new Title XVI 
construction authorization, the South Bay Advanced Recycled Water 
Treatment Facility, is already authorized by Congress and is considered 
feasible under Reclamation guidelines. Two additional projects--the 
Pittsburg Recycled Water Project and the Mountain View/Moffett Area 
Recycled Water Project--have received feasibility determinations from 
Reclamation.
    Meanwhile, the sponsors of the South Santa Clara County Recycled 
Water Project and the Antioch Recycled Water Project have not yet 
completed a review of their draft feasibility reports and environmental 
documents. Therefore, the feasibility reports do not meet the 
requirements for Title XVI feasibility studies.
    Feasibility reports for the last two projects identified for 
construction authorization in S. 1475--the North Coast County Water 
District Recycled Water Project and the Redwood City Recycled Water 
Project--were reviewed by the Bureau of Reclamation in 2006. The 
feasibility reports for both projects needed additional environmental 
and financial capability information. To date, the project sponsors 
have not provided this additional information in order for Reclamation 
to complete the determination of feasibility.
    Although one of the projects included in the bill is already 
authorized for design, planning, and construction, and two of the 
projects have feasibility reports that meet the requirements of Title 
XVI feasibility studies, the remaining four projects do not have 
feasibility reports that meet those requirements. As such, the 
Department believes that it is premature to authorize projects prior to 
completion of feasibility reports.
    While Reclamation does not support new authorizations for Federal 
cost sharing of water recycling projects, we understand that the 
projects established by Title XVI are important to many water users in 
the West. To that end, Reclamation has set about revising and improving 
its Directives and Standards that govern reviews of Title XVI projects. 
By doing so, we believe that Reclamation can play a more constructive 
role with local sponsors in weighing the merits and ultimate 
feasibility of proposed water recycling projects.
    The Department appreciates local efforts to address future water 
issues. However, in light of the concerns expressed above, we do not 
support S. 1475. That concludes my prepared remarks. I would be pleased 
to answer any questions.

    Senator Tester. Thank you. I appreciate your summary.
    Mr. Todd, a couple questions. I believe that your testimony 
said that Reclamation supports efforts to increase use of 
recycled water, and that you're in the process of improving 
guidelines. Yet, you also stated that you oppose each bill, 
citing the backlog, which quite honestly, I can appreciate.
    But, your annual budget does not address the backlog, in 
fact, I believe it recommends a 50 percent cut. So, what's 
occurring financially doesn't match up with what is being said 
from a policy standpoint. I was wondering why? Why is this the 
case?
    Mr. Todd. The competition for dollars in keeping facilities 
running, and constructing new projects, like Animas la Plata, 
and keeping our dams safe--which are very high priorities--is 
just tremendous amount on the small budget that Reclamation 
has. I believe that we have had--over the last several years, 
about $10 million that we have proposed in the Title XVI 
funding, and I don't see that increasing significantly.
    If it were to increase significantly, we would really have 
to take it from other important projects, as well. So, quite 
frankly, we just can't increase it without harming other 
priorities.
    Senator Tester. What's the value of improving the 
guidelines, if the dollars aren't going to be there?
    Mr. Todd. The guidelines are about the engineering and the 
economics of that particular project. We do believe in these 
projects, absolutely, and we also believe in, that it is a 
local responsibility. So, together with those two philosophies, 
we believe that if the Federal Government can, in fact, deem 
these feasible, that it gives some confidence to the project. 
We believe that that's important, it's an important leadership 
role in Title XVI.
    Senator Tester. Local responsibility for funding?
    Mr. Todd. Pardon?
    Senator Tester. You said it's--you believe it's a local 
responsibility, so you think the local entities should be 
taking care of the funding of these projects?
    Mr. Todd. We certainly believe that it is a local 
responsibility, and do believe that the majority of the 
funding--even in these bills--do come from the locals, and so 
we do want to support the ideology of those programs.
    Senator Tester. OK. I'll get some more questions, but I've 
just got to make a real quick comment.
    I mean, water infrastructure is so critically important. 
Water resources--regardless of what they say about oil and gas 
and all of that good stuff--water is more important than 
anything. I mean, it's tough to survive without it. You know, I 
continually hear about infrastructure needs, and whether you're 
talking Texas, or you're talking California, or you're talking 
Montana, or North Dakotas--anywhere you want to go, a lot of 
this stuff either isn't there, or it's flat worn out, if it is.
    I don't know, maybe it's because of what's going on in our 
foreign policy, maybe it's some other reason, but I would just 
tell you, I would hope that somebody is bucking the 
Administration on these 50 percent cuts in funding. That's all. 
I mean, somebody's got to stand up and ask for what's right.
    As I understand it, there are several ongoing initiatives 
in California to develop strategies, restore the health of the 
Sacramento San Joaquin Bay Delta. Is Reclamation involved in 
those initiatives, and if so, will the North Bay Water Reuse 
Program contribute to a larger restoration effort there?
    Mr. Todd. Yes, we are involved in Bay Delta, and how all of 
that operates, certainly. Any time that any of these projects, 
Title XVI, I believe North Bay would probably be one of those, 
can reduce the import of water, would certainly help that 
situation there. I don't think there's any doubt about that.
    Senator Tester. Testimony by North Bay Water Reuse 
Authority indicates that feasibility studies and environmental 
documents for the program will be completed by the end of 2008. 
Do you agree with the timeframe? Will Reclamation have 
completed its review of those documents in a similar timeframe?
    Mr. Todd. Excuse me, Senator, I missed the particular ones 
that you were talking about.
    Senator Tester. North Bay Water Reuse Authority feasibility 
study and environmental documents for the program, due to be 
completed by the end of 2008. Just wondering if you guys agreed 
with that timeframe, and if Reclamation will have completed its 
review in a similar timeframe?
    Mr. Todd. Certainly when--on that, when we get the 
information, and I believe it would be true in this case, when 
we get all of the information, we have been responsive within 
two to six, 7 months in being able to make a call on 
feasibility. So, we stand ready to----
    Senator Tester. OK.
    Mr. Todd [continuing]. To deal with that, when we get all 
of the information in.
    Senator Tester. OK, your testimony in Central Texas bill 
indicates that Reclamation has not yet received any feasibility 
reports from the local sponsors, correct?
    Mr. Todd. That's correct.
    Senator Tester. OK, testimony on the second panel indicates 
that such reports have been provided to Reclamation, can you 
clarify that?
    Mr. Todd. I believe that we have met with the city of Waco, 
and talked over initial information about what a Title XVI and 
a Reuse Program might be. However, I do not believe that the 
City has actually submitted a feasibility report for us to 
review, and make a call on.
    Senator Tester. Hopefully we'll get some further 
clarification from that from their perspective.
    The Administration--at least it sounds like the 
Administration--does not support the Orange County bill because 
of the precedent it might set in increasing the Federal 
contribution ceiling to an amount greater than $20 million. 
Have there been any individual Title XVI projects that have 
received a Federal contribution in excess of $20 million, to 
date?
    Mr. Todd. There may be--there may be up to $25 million, and 
I can't recall exactly which ones right now, but maybe $25 
million. But I do not believe that any of them have been to the 
extent of the Orange County 1175. That one, I think, goes all 
the way up to fifty-one or two million, I believe. I do not 
believe any of them have been up that high.
    Senator Tester. Is the Orange County program one project, 
or is it a number of different projects?
    Mr. Todd. This is--this particular bill addresses Phase I, 
and there are three phases to that project. So, the increase in 
ceiling would be just for Phase I, which I believe is supposed 
to be completed here, fairly soon.
    Senator Tester. So, it is your thought that the Orange 
County program is one project?
    Mr. Todd. Yes, I believe it's one project.
    Senator Tester. OK. With respect to the Bay Area Regional 
Program, your testimony states that four of the projects within 
the bill are not yet considered feasible by Reclamation. Two of 
these projects--the South Santa Clara Projects, and the Antioch 
Project--need completion of a review of the feasibility reports 
and environmental documents. When do you anticipate those to be 
completed?
    Mr. Todd. In the Bay Area, I think that there are six or 
seven projects--six projects. San Jose, South Bay is already 
authorized, Pittsburgh has been deemed feasible, Mountain View 
has been deemed feasible, Antioch and Santa Clara are the ones 
that we are reviewing in process right now. We believe we will 
have that out shortly, and there is some communication with 
those projects, about the information. So, we believe that 
we'll have answers, here, soon.
    Senator Tester. Which is how--what's, how long is 
``shortly,'' or ``soon''?
    Mr. Todd. You know, I don't have the exact timeframe, but 
there is environmental information, I believe, and economic 
information that was necessary. So, as soon as we get that 
information, we can certainly look at it, and make a call on 
feasibility.
    Senator Tester. So, you haven't got--I shouldn't say 
``got''--you haven't received all of the information?
    Mr. Todd. That's correct.
    Senator Tester. That's been the hold up?
    Mr. Todd. That's correct, on those two.
    Senator Tester. OK. That's fine. I will anticipate when you 
get that information would be done--week, two?
    Mr. Todd. I don't know if it would be that soon. But, 
certainly, I think our record, since last year when we put 
these new procedures in place, we've been very responsive, 
within a couple of months, maybe up to 4 months, depending on 
the complexity of the project.
    Senator Tester. Is there any way to speed that up? Assuming 
you get those documents?
    Mr. Todd. Certainly will, you know, we're going to make it 
a priority if we possibly can. But, we only have a certain 
amount of staff that's doing this work, so----
    Senator Tester. OK. I just--once again--thank you for, 
thank you for being here. I appreciate, appreciate your 
perspective. So, thank you very much.
    Mr. Todd. Thank you.
    Senator Tester. While--hang on here for a second--while 
Larry is going down, we need Rich Atwater, Gary Darling, Larry 
Groth, Bill Long, Randy Record.
    For our second panel, we have Rich Atwater, with the Inland 
Empire Utilities Agency, on S. 1054, and H.R. 122; Bill Long, 
representing the North Bay Water Reuse Authority on S. 1472; 
Gary Darling with the Delta Diablo Sanitation District on S. 
1475 and H.R. 1526; Randy Record, with the Eastern Municipal 
Water District, on H.R. 30; and Larry Groth, representing the 
city of Waco Texas on H.R. 609. Hopefully I didn't butcher 
anybody's names in that process. A little bit? I'm sorry.
    But we want to welcome each one of you, and want to thank 
you very much for traveling to be here. I would ask you, as I 
did Larry Todd, for you to summarize your testimony, and we'll 
start with Mr. Atwater, and we'll proceed down the line.
    Thank you, gentlemen.

   STATEMENT OF RICHARD W. ATWATER, GENERAL MANAGER AND CEO, 
                INLAND EMPIRE UTILITIES DISTRICT

    Mr. Atwater. Thank you, Mr. Chairman, and I appreciate very 
much the opportunity to testify today.
    My name, for the record, is Richard Atwater, and I'm the 
General Manager, and CEO of the Inland Empire Utilities Agency, 
and I also wanted to submit for the record--besides my written 
testimony--a letter from the Cucamonga Valley Water District 
that provides background and documentation for their Bureau of 
Reclamation-approved feasibility study, and their project which 
is part of our regional program to develop recycled water.
    Senator Tester. It will be included in the record.
    Mr. Atwater. Let me just give you a little bit of 
background. My written testimony talks about all of the 
activities in the history of our projects, they go back to 
1991. Let me just briefly summarize that.
    The Secretary of the Interior in 1991, Secretary Johanns, 
initiated the regional studies--the Southern California 
Regional Water Recycling Studies--and since that time, the 
Bureau of Reclamation, with its non-Federal partners, including 
the State of California, the Metropolitan Water District, and 
the other water agencies from San Diego, to LA, to Ventura 
County--have spend in excess of $20 million in doing studies.
    Deputy Commissioner Larry Todd is correct, our report--
which we completed in 2002, in October 2006, the Bureau did 
determine our project to be feasible. In fact, the Bureau of 
Reclamation's own report in 2002, 5 years ago, evaluated and 
identified over 400,000 acre feet of new recycled water in 
Southern California, throughout the area, and ranked our 
project as the most cost effective in the State.
    That's not to say, not all of them are great projects, in 
fact, I'll talk about that later. The Governor of California 
had a water recycling task force in 2003, that report 
recommended over a million acre feet, and the State Water Plan, 
adopted in 2005 says the only new significant water supply in 
the State of California is recycled water.
    So, when we talk about the San Francisco Bay Delta, the 
ongoing drought in the Colorado River, which doesn't quite get 
to Montana, but certainly dramatically effects Wyoming, 
Colorado, New Mexico, Utah, Nevada and Arizona, is dramatic, 
and with global climate change it's going to get more severe. 
We don't know when the drought's going to end.
    But from our perspective, recycled water is probably the 
most cost effective new supply in the arid West, and throughout 
the Western States. The irony is, in Florida, they do twice as 
much as we do in California, which shows you our goals may be 
too modest, and we ought to be doing a better job.
    Besides spending $20 million with the Federal Government 
over the last 15 years, there are a lot of good projects that 
are underway. What I remind everybody, not too many years ago, 
5 percent of the Bureau of Reclamation budget was spent on 
water recycling.
    Today, that $10 million that the Chairman alluded to in 
your comment to the Bureau of Reclamation represents 1 percent 
of the Bureau's budget. If Congress and the Administration 
would just earmark, and fund water recycling at the 5 percent 
historic level, you would develop more new water supply than 
the remaining 95 percent of the Bureau's budget. So, it kind of 
points out the importance of what we can accomplish.
    The second point that I'd make is when we talked about the 
Bay Delta, Southern California very dependent upon Colorado 
River water, and water from Northern California, chairman, 
you're from Montana, one of the things you don't appreciate is, 
when we import water 500 miles from Northern California, or 
from the Rockies, it takes a heck of a lot of energy to bring 
it to LA and San Diego. It takes one- fifth to one-sixth the 
amount of energy to reuse the water locally. In our service 
area alone, that's equivalent to a 50 megawatt power plant. So, 
the energy value--besides the environmental values, and the 
multiple endangered species on the Colorado River, and in the 
San Francisco Bay Delta, the energy benefits, you'll see that 
in Senator Feinstein's written testimony--whether you believe 
in global climate change or not--the environmental air 
pollution benefits are rather dramatic. When you look at the 
price of oil today, we probably ought to look at ways to use 
water more wisely, because it's a very significant energy 
savings.
    A quick footnote, in California, 20 percent of all 
electrical use in the State of California is relating to 
pumping, and using, and treating water. So, it's a significant 
energy impact.
    So, in closing, let me just again say that, I've been 
working with the Bureau of Reclamation since 1991 on Title XVI 
projects, the first one that was ever funded--we did get $50 
million, to correct the record--was from the Bureau of 
Reclamation, and it was strongly supported by the Federal 
Government, by the State of California, just like our projects 
that we're working on in the Bay Area, and Southern 
California--there's no opposition to any of these projects, 
it's just a lack of funding. They have broad support from all 
of the community interests--the environmental community, 
business leaders, every one of our City Councils in our service 
area, our local newspapers have written editorials every year, 
in support of getting these projects funded.
    So it's one that I think, when you consider that we're 
asking the Federal Government to contribute 10 percent of a 
$300 million project, to develop over 100,000 acre feet, I'll 
challenge the Bureau of Reclamation, find me a more cost-
effective Federal investment, in California or anywhere in the 
Colorado River Basin.
    Thank you very much for the chance to testify today.
    [The prepared statement of Mr. Atwater follows:]
  Prepared Statement of Richard W. Atwater, General Manager and CEO, 
        Inland Empire Utilities Agency, on S. 1054 and H.R. 122
                              introduction
    Thank you, Chairman Bingaman and members of the Subcommittee for 
Water and Power, for the opportunity to testify today. I am the General 
Manager and CEO of the Inland Empire Utilities Agency. On behalf of the 
Board of Director's of the Inland Empire Utilities Agency, I am 
testifying today in support of S. 1054 and H.R. 122. The federal 
investment of $30 million represents an approximate 10% cost-share of a 
total capital investment of over $300 million to develop in excess of 
100,000 acre-feet (AF) of new recycled water supplies.
I. Inland Empire Utilities Agency and Chino Groundwater Basin Region
    The Inland Empire Utilities Agency, a municipal water district 
under California law, was organized in 1950 by a popular vote of its 
residents. The service area of the Agency is entirely in San Bernardino 
County in southern California and has a current population of 
approximately 800,000. The IEUA service area is rapidly growing and is 
projected to grow to 1,200,000 within the next 20 years. The Chino 
Groundwater Basin is an adjudicated aquifer under the continuing 
jurisdiction of the California Superior Court with a Watermaster 
governing all water rights under a Judgment approved in 1978. The Chino 
Basin also is home to 250,000 dairy cows, the most densely concentrated 
population of dairy cows in North America. Overall water use is about 
350,000 acre-feet annually, 70 percent of the supplies are from local 
sources within the Santa Ana Watershed. With the rapid growth, demand 
from MWD could increase from 70,000 acre-feet per year currently to 
150,000 acre-feet in 2020 unless we work together to develop recycled 
water supplies, develop groundwater storage and continue to implement 
progressive water conservation programs! However IEUA, Chino Basin 
Watermaster and in cooperation with many other agencies have developed 
a ``Drought Proof Plan'' that will develop over 100,000 acre-feet of 
new recycled water plus additional brackish groundwater desalination 
supplies (50,000 acre-feet) and groundwater conjunctive use storage 
(500,000 acre-feet).
    The Agency has been a member agency of the Metropolitan Water 
District of Southern California (wholesale distributor of Colorado 
River and State Water Project supplies) since 1950 and distributes 
about 70,000 acre-feet of imported water to the cities of Chino, Chino 
Hills, Fontana (through the Fontana Water Company), Ontario, Upland, 
Montclair, Rancho Cucamonga (through the Cucamonga County Water 
District), and the Monte Vista Water District. The Agency also provides 
wastewater treatment service (four regional water recycling plants that 
produce about 60 million gallons per day or 63,000 acre-feet per year). 
Excess recycled water flows downstream into the Santa Ana River and the 
Orange County Water District recharges that water into the Orange 
County groundwater basin for drinking water.
    The Agency is also a member of the Santa Ana Watershed Project 
Authority (SAWPA) and is an active member of the Santa Ana River 
Watershed Group and the Chino Basin Watermaster. As a member agency of 
SAWPA, the Agency's water projects are closely coordinated with the 
SAWPA watershed wide planning and the funding of priority projects 
through California Water Bonds approved by the voters (1998, 2000, 
2004, and 2006).
    Chino groundwater basin is one of the largest in Southern 
California. The Chino Basin Watermaster adopted an Optimum Basin 
Management Plan (OBMP) in 2000 to protect the water quality of the 
basin and to manage the local supplies effectively to the maximum 
benefit of the local ratepayers. A key element is the expansion of the 
conjunctive use operation of the Chino Basin to expand the storage and 
recovery by approximately 500,000 acre feet, roughly equivalent to the 
$2 billion Diamond Valley reservoir built by MWD.
    The key benefits of the Chino Groundwater Basin regional ``OBMP'' 
water plan are as follows:
            Benefits
  <bullet> Provide a more dependable local water supply and reduce the 
        likelihood of water rationing during future droughts;
  <bullet> Reduce electrical energy needed to pump water from northern 
        California (State Water Project) equivalent to a 50 megawatt 
        power plant and thus would reduce CO<INF>2</INF> emissions by 
        over 100,000 tons per year;
  <bullet> Provide a ``drought water supply'' to industry and provide 
        incentives to attract new industry and jobs in the Inland 
        Empire region;
  <bullet> Environmental protection--enhance the water quality of the 
        Santa Ana River and protect Orange County drinking water 
        supplies through implementation of comprehensive lower Chino 
        Dairy area manure management strategy;
  <bullet> Reduce imported water use in the rapidly growing Inland 
        Empire region (upper Santa Ana River Watershed) and thereby 
        contribute in a significant manner to the statewide CALFED Bay-
        Delta and Colorado River solutions through more efficient use 
        of existing local supplies;
  <bullet> Assist in solving multiple Endangered Species Act problems 
        within the Santa Ana Watershed, the CALFED Bay-Delta program, 
        and the Colorado River/Salton Sea through more efficient water 
        usage; and
  <bullet> Implement a sustainable long-term Chino Basin groundwater 
        storage and recovery program that maintains the salt balance of 
        the Santa Ana River watershed.
            Santa Ana River Watershed Planning and Partnerships
  <bullet> The Santa Ana Watershed Project Authority (SAWPA) led ``One 
        Water-One Watershed'' dialogue with all interested parties 
        through its nationally recognized watershed planning process 
        that will result in an updated Integrated Water Resources 
        Management Plan;
  <bullet> All local governments within the three counties (San 
        Bernardino, Riverside and Orange) are working cooperatively 
        together to manage growth and plan for the water/wastewater 
        infrastructure needed to meet the needs of this rapidly 
        urbanizing watershed;
  <bullet> Partnerships with industry including dairies (Milk Producers 
        Council), manufacturing, and developers have resulted in 
        creative solutions to local water quality problems (e.g. the 
        Santa Ana brine sewer to the ocean); and
  <bullet> Customers throughout the Watershed are implementing water 
        use efficiency practices or using recycled water to reduce 
        costs, enhance reliability, and drought proof the watershed.
II. Chino Basin ``Drought Proofing Strategy''
    The IEUA Urban Water Management Plan, adopted in December 2005, and 
the Chino Basin Watermaster Optimum Basin Management Plan adopted in 
July 2000, document the overall strategy for improving the water supply 
reliability in the Chino Basin area.

  <bullet> Water Conservation--10% savings 35,000 AF;
  <bullet> Water Recycling--100,000 AF;
  <bullet> Local Groundwater Storage and Conjunctive Use--500,000 AF of 
        new storage;
  <bullet> Groundwater Cleanup--Chino Desalters 50,000 AF;
  <bullet> Stormwater--25,000 acre-feet of new yield;
  <bullet> Renewable Energy and Organics Recycling--Clean energy 
        through dairy manure biodigesters, solar and composting of 
        biosolids (goal of 10 megawatts by 2010); and
  <bullet> Water Quality Management--Partnership with Orange County on 
        Prado Wetlands.
 water conservation (35,000 acre-feet per year, 10 percent of overall 
                                  use)
    IEUA and its retail utilities are committed to implementing the 
Memorandum of Understanding (MOU) regarding Urban Water Conservation in 
California. IEUA is an active member of the California Urban Water 
Conservation Council (CUWCC). Currently, the Agency is expanding its 
conservation efforts to promote both water and energy conservation 
programs to our customers. IEUA's goal is to reduce water demands by 10 
percent (35,000 acre-feet per year) through aggressive implementation 
of customer conservation programs. As a result of the current drought 
conditions, IEUA has initiated a number of new innovative programs in 
partnership with the cities and local governments on outdoor native 
landscape policies and promoting expanded residential and school 
conservation programs to improve water use efficiency.
                  water recycling (100,000 acre-feet)
    IEUA owns and operates four water recycling plants that produce 
high quality water that meets all state and federal requirements for 
non-potable landscape irrigation (including farmers), industrial uses, 
and groundwater replenishment. The Agency recycles about 6,000 acre-
feet annually and has a plan to increase to approximately 100,000 acre-
feet annually over the next decade by constructing a ``purple'' 
recycled water pipeline system to hookup existing large customers and 
dual plumbing upfront in new master planned communities.
    IEUA is also planning for future new smaller water recycling plants 
in the northern part of the service area to provide recycled water to 
communities (Upland, Fontana, and Rancho Cucamonga) without the need to 
pump the water to them. The Cucamonga County Water District (CCWD) 
proposed satellite plant authorized by S. 1054 and H.R. 122 would be 
the prototype of this ``satellite'' technology plant to reduce energy 
use of pumping recycled water to the higher elevations along the San 
Gabriel Mountains.
  local groundwater storage and conjunctive use (500,000 acre-feet of 
                              new storage)
    Without the Chino Basin area, the Watermaster is implementing an 
Optimum Basin Management Plan to enhance the conjunctive use storage of 
the Chino Basin. The Optimum Basin Management Program developed over 
the past two years by the Chino Basin Watermaster would implement a 
comprehensive water resources management strategy to drought proof the 
area and enhance the yield of the groundwater basin. The Chino Basin 
Watermaster has developed a conjunctive use program to store 500,000--
1,000,000 acre-feet of imported water in wet years for drought year 
withdrawal for both local, regional and statewide availability. In 
June, 2003 IEUA, Chino Basin Watermaster, Three Valleys Municipal Water 
District, Western Municipal Water District and the Metropolitan Water 
District executed an agreement for the initial 100,000 acre-feet of 
storage and recovery projects ($27.5 million funding from MWD and 
California DWR) and recently MWD approved (June 2007) the next phase of 
expansion to 150,000 AF.
              groundwater desalination (50,000 acre-feet)
    Historically, Colorado River water (relatively high salinity) and 
agricultural practices have caused areas of the Chino Basin to have 
high salts that make the water unfit for domestic uses. To correct this 
problem and to recover this poor quality water, the Chino Basin Optimum 
Management Plan recommends implementation of groundwater cleanup 
projects to pump and treat poor quality groundwater to meet drinking 
water standards. Additionally, the desalination projects of the lower 
Chino Basin area will protect and enhance the water quality of the 
Santa Ana River and the downstream use by Orange County. H.R. 177 would 
provide authorization under the Bureau of Reclamation's Title XVI 
program to provide funding for the Lower Chino Area desalter and brine 
line improvements for the SAWPA SARI brine system recommended in the 
Southern California Comprehensive Water Reclamation and Reuse Study 
(USBR, 2003) and the joint MWD/USBR Salinity Management Study (1999).
      stormwater (25,000 acre-feet annual average of new capture)
    A critical issue facing the coastal plain of Southern California as 
the region continues to urbanize and hardscape our landscapes will be 
how to implement both small scale and larger scale projects for 
stormwater capture to allow percolation into our groundwater basins. 
IEUA in coordination with the Chino Basin Watermaster, the San 
Bernardino County Flood Control District and the Chino Basin Water 
Conservation District is developing an integrated recharge master plan 
to optimize the capture of stormwater with replenishment of imported 
water from MWD and our local recycled water to enhance the storage and 
recovery of water from the Chino Basin.
    IEUA is also sponsoring work, in part funded by the CALFED Bay-
Delta Program, with the Rocky Mountain Institute, on small scale, on-
site (neighborhood development) stormwater management strategies to 
enhance percolation of rainfall to minimize runoff, contamination of 
rainfall before it percolates, and cost effectively reduce flood 
control requirements. IEUA is currently working with cities and 
developers to develop new standards for new developments that will 
reduce on-site urban stormwater runoff and increase recharge of the 
Chino groundwater basin.
                renewable energy and organics management
    The energy crisis reminds all of us working on the water problems 
facing California how incredibly dependent the imported water 
infrastructure of southern California is on cheap, low cost electricity 
to pump imported water into our region.
    IEUA in response to the energy crisis and our need to be a steward 
of our environment has developed a Chino Basin Organics Management 
Strategy that will:

  <bullet> Produce through anaerobic digestion enough methane gas for 
        10 megawatts of clean, renewable electric energy by 2008;
  <bullet> Constructed award winning LEED Platinum IEUA Headquarters 
        Complex and Chino Creek Park (2007), which includes solar and 
        energy recovery features;
  <bullet> Cost effectively recycle organic wastes into fertilizer 
        products in an environmentally safe manner that will reduce 
        many thousands a year of long haul diesel truck trips per year 
        in joint project with the Los Angeles County Sanitation 
        Districts;
  <bullet> Reduce significantly air and water pollution from dairy cow 
        manure; and
  <bullet> Minimize the need for electric power from the grid for 
        operating the Chino Basin desalination and water recycling 
        plants.
                        water quality management
    IEUA and Orange County Water District executed a Memorandum of 
Understanding in October 2002 to cooperate in water quality management 
issues in the Prado wetlands area. In 2006, the Chino Creek Integrated 
Watershed Plan was completed. Current projects include development of 
the lower Cucamonga Creek wetlands restoration project (City of 
Ontario), completion of the Chino Creek Native and Educational Park 
(IEUA) and other trail and habitat improvements along Chino Creek 
(cities of Chino and Chino Hills).
III. IEUA Proposed Regional Water Recycling Projects S. 1054/H.R. 122
    In August, 2002, the Board of Directors of the Inland Empire 
Utilities Agency, after receiving approval and endorsement by the Chino 
Basin Watermaster, SAWPA and all the local cities and retail water 
agencies within its service area adopted its Regional Water Recycling 
Feasibility Study and certified the Environmental Impact Report. The 
feasibility study fully complied with the U.S. Bureau of Reclamation's 
guidelines for Title XVI Projects (December 1998) and was formally 
approved in October, 2006, by the U.S. Bureau of Reclamation. IEUA has 
also received all the regulatory and NEPA approvals for implementing 
the water recycling projects from federal agencies (Army Corps of 
Engineers, EPA and USFWS). The Cucamonga Valley Water District 
Feasibility Report was also approved by the U.S. Bureau of Reclamation 
in 2006.
    The planning for the IEUA regional water recycling began in the 
early 1990s with the initiation by the U.S. Bureau of Reclamation in 
1991 of the Southern California Comprehensive Water Reclamation and 
Reuse Study (SCCRRWS). During the past 15 years the Bureau and its 
southern California water agency partners have spent over $20 million 
in feasibility studies evaluating water recycling projects throughout 
the coastal plain of the MWD service area. As a result, the IEUA 
Feasibility Report development has coordinated with many agencies and 
is consistent with the adopted Plans of the following agencies:

  <bullet> SCCRRWS (in 2001 the Bureau of Reclamation ranked the IEUA 
        project as the most cost effective recycled water project in 
        southern California);
  <bullet> Metropolitan Water District of Southern California's 
        Integrated Resource Plan;
  <bullet> Santa Ana Watershed Project Authority's Integrated Watershed 
        Plan;
  <bullet> Santa Ana Regional Water Quality Control Board's Santa Ana 
        River Basin Plan approved IEUA water recycling projects in 
        2004;
  <bullet> California Water Recycling Task Force Report (2003) 
        recommends implementing statewide water recycling projects to 
        develop 1.5 million acre-feet;
  <bullet> MWD/USBR Salinity Management Study (adopted by MWD Board of 
        Directors 1999);
  <bullet> California Water Plan, Bulletin 160 (2004) identified water 
        recycling as the only new significant water supply; and
  <bullet> The State Water Resources Control Board (SWRCB) has reviewed 
        and approved the IEUA Feasibility Report and funded Phases 1 
        and 2 of the capital improvement program.

    The expansion of the Regional Recycled Water Program has been 
designed to occur in phases in order to maintain a balance between 
capital expenditures, sources of funding, and the development of a 
customer base for the delivered water. Since 2002, IEUA has spent over 
$80 million in constructing improvements to the Chino Basin recharge 
facilities and building recycled water ``purple'' pipes and pumping 
plants to deliver recycled water for irrigation, industrial customers 
and replenishment of the groundwater aquifer. Every year the IEUA Board 
of Directors, after consulting with all the water agencies and cities 
within its service area, updates and adopts a new 10 year capital 
improvement program for the regional recycled water program to ensure 
that all the priority recycled water facilities are built to meet the 
needs of the region.
    IEUA continually evaluates the capital funding needs for the 
Recycled Water Expansion Program and has determined that with State and 
Federal funding assistance of the $300 million capital improvement 
program over the next decade it will accomplish the goal of delivery of 
100,000 acre-feet annually of recycled water for beneficial reuse.
    In closing, Chairman Bingaman and members of the Committee, I 
appreciate very much your consideration and support for S. 1054 and 
H.R. 122. Water recycling and groundwater desalination are critical new 
supplies for Southern California that have statewide benefits by 
reducing the significant energy use to pump water to southern 
California and also help solve the Bay/Delta and Colorado River supply 
issues. Clearly, water recycling throughout the arid southwest is the 
most significant new supply that can be cost effectively developed to 
meet the growing needs for urban water supplies. It is imperative for 
the Bureau of Reclamation to provide the water policy leadership and to 
increase funding through Title XVI to assist in meeting these critical 
water supply problems facing the arid southwest portion of the United 
States.
    Finally, the numerous scientific studies of the implications of 
Global Climate Change are that it may increase significantly the 
potential for severe long-term droughts affecting the arid southwest. 
Therefore, it is imperative that projects like the Inland Empire 
regional water recycling be implemented immediately to reduce the 
economic impacts of water shortages. In summary, the multiple 
environmental and economic benefits to the nation and the relative cost 
effectiveness of these energy efficient new recycled water supplies for 
a modest federal investment of only $30 million certainly document the 
value of authorizing H.R. 122 and S. 1054.

    Senator Tester. I appreciate your summary, and we'll have 
some questions later on.
    Mr. Darling.

   STATEMENT OF GARY DARLING, GENERAL MANAGER, DELTA DIABLO 
                SANITATION DISTRICT, ANTIOCH, CA

    Mr. Darling. Mr. Chairman, good afternoon. My name is Gary 
Darling, and I am the General Manager of the Delta Diablo 
Sanitation District, in Antioch, California.
    I appreciate the invitation to appear, on behalf of the Bay 
Area Regional Water Recycling Program, called BARWRP, for 
short, coalition. At the outset, I want to extend the 
coalition's deepest appreciation to Senator Feinstein for her 
vision and leadership in introducing S. 1475, which will help 
eight Bay Area communities, a region with a growing population, 
limited water resources, and a unique environmental setting to 
increase their municipal water supplies through recycled water 
projects.
    I also want to commend Senator Boxer, for her--for being an 
original co-sponsor of the bill.
    Mr. Chairman, as a matter of background, BARWRP is a 
collaboration of 17 Bay Area public entities that provide water 
and wastewater utility service to over one-sixth of the 
population of California. BARWRP completed a Master Planning 
Study in 1999, and identified 125,000 acre feet per year of 
feasible recycled water opportunities, and 240,000 acre feet 
per year by 2025. Since then, the Bay Area has invested nearly 
$300 million in developing recycled water projects.
    BARWRP's efforts have received assistance from the State of 
California through Proposition 50, and are in need of 
additional support for implementation through the Federal 
Government.
    The regional approach that we've taken in the Bay Area, 
ensures that potential projects, with the greatest potential, 
and Statewide benefit, receive the highest priority and support 
for implementation.
    While recycled water is an asset to any community, in the 
San Francisco Bay Area, the benefits of water reuse extend 
through California's network of water supplies to the State and 
Nation. The region is part of the Sacramento, San Joaquin Delta 
System, the largest estuary on the West Coast of North America, 
and a source of drinking water for two-thirds of California's 
population.
    As a result, the Bay Area communities help address the 
needs of the entire State when we pursue our recycled water 
opportunities.
    Specifically, S. 1475 would help the eight Bay Area 
communities increase their municipal water supplies through 
innovative, and much-needed, water recycling projects. These 
projects offer significant benefits for California and the 
Federal Government. Benefits include the preservation of State 
and Federal reservoir water supplies for higher uses, rather 
than for urban landscape irrigation, and particularly in 
drought years.
    On a regional and local basis, the benefits include the 
preservation of our declining water supplies from the Sierra, 
and Delta, for higher uses, drought-proof assistance for the 
region--as you know, the California snow pack was at its lowest 
in 19 years--provision of a sustainable and reliable source of 
water in light of climate change, and results in reduction in 
wastewater discharges, into the sensitive Bay Delta 
environment. These projects are ready to proceed, and start 
delivering their benefits.
    The projects have been repeatedly vetted, both internally 
and at the local level, through the various steps of the State 
process, and the Federal review process. Two of our projects--
as Mr. Todd mentioned--the Pittsburgh Project, and the Mountain 
View Palo Alto Project have met all of the criteria under Title 
XVI guidelines, and are actually in construction. We've had to 
move those projects forward, at this point in time, or risk 
losing our State funding that we receive through Proposition 
50.
    One clarification to Mr. Todd's testimony, the project that 
he mentioned--the Antioch Project? Actually, all of the 
information has been submitted to the Bureau of Reclamation, 
including all of the NEPA compliance, and so we're just 
awaiting for the final action on behalf of the Bureau. But all 
of that information was submitted.
    These seven projects are estimated to created over 12,000 
acre feet of new water, annually in the short term, and over 
37,000 acre feet of water in the long term.
    It's also noteworthy that each of the sponsors in the Bay 
Area are committed to satisfying all of these Title XVI 
criteria. We're not seeking to have the projects legislated 
into compliance. Timing--as I mentioned before--is critical. 
Two of the seven project are in construction. Without a Federal 
partnership, the projects are under funded.
    Regarding the Pittsburgh Project, Mr. Chairman, I want to 
call the subcommittee's attention, one difference between S. 
1475, and H.R. 1526, the House-passed companion bill--during 
the committee markup process in the House, the authorization 
level for the Pittsburgh Project was increased from $1.4 
million to $1.75 million, to reflect updated project cost 
estimates. As the subcommittee gives further consideration to 
S. 1475, we would respectfully request that the same change be 
made to that subsection of the bill.
    Last, the bill would urge the Bureau of Reclamation to 
fully fund the San Jose Water Reclamation Reuse Project--
already authorized by law--but woefully under funded, to date.
    Mr. Chairman, water recycling offers great potential to 
States like California that suffer droughts, suffer from 
droughts, and have limited freshwater supplies. To address 
these issues, S. 1475 would establish a partnership between the 
Federal Government and the local communities to implement a 
regional water recycling program in the Bay Area. This 
legislation is critical to meeting the needs of the Bay Area, 
accordingly, the Coalition strongly urges support of S. 1475.
    Thank you.
    [The prepared statement of Mr. Darling follows:]
 Prepared Statement of Gary W. Darling, General Manager, Delta Diablo 
              Sanitation District, Antioch, CA, on S. 1475
    Mr. Chairman and Members of the Subcommittee, good afternoon. My 
name is Gary Darling and I am the General Manager of the Delta Diablo 
Sanitation District in Antioch, California.
    I appreciate the invitation to appear this afternoon to offer 
testimony on behalf of the Bay Area Regional Water Recycling Program 
(BARWRP) Coalition, a partnership of Bay Area Regional Water Recycling 
agencies, in strong support of S. 1475, the ``Bay Area Regional Water 
Recycling Program Authorization Act of 2007.''
    At the outset, I want to extend the Coalition's deepest 
appreciation to Senator Feinstein for her vision and leadership in 
introducing this much-needed water legislation which will help eight 
Bay Area communities--a region with a growing population, limited water 
resources, and a unique environmental setting--increase their municipal 
water supplies through innovative water recycle projects. I also want 
to commend Senator Boxer for being an original cosponsor of the bill.
    Mr. Chairman, as a matter of background, BARWRP is a collaboration 
of 17 Bay Area public entities that, in cooperation with state and 
federal governments, provide water and wastewater utility service to 
over one-sixth of the population in California. BARWRP's mission is to 
pursue water recycling in the San Francisco Bay Area from a regional 
perspective. The Bay Area Water Recycling Master Plan, completed in 
1999, identified 125,000 acre-feet per year of feasible recycled water 
opportunities by 2010, and 240,000 acre-feet per year by 2025. Since 
then, BARWRP agencies have invested nearly $300 million in local funds 
to water recycling projects, and many more projects are ready to be 
built. BARWRP efforts have received assistance from the State through 
Proposition 50 funding opportunities, and are in need of additional 
support for implementation. The regional approach taken by Bay Area 
agencies ensures that potential projects with the greatest regional and 
statewide benefit receive the highest priority and support for 
implementation. S. 1475 embodies these principles as espoused by the 
Coalition.
    While recycled water is an asset to any community, in the San 
Francisco Bay Area the benefits of water reuse extend through 
California's network of water supplies to the State and Nation. The 
region is part of the Sacramento-San Joaquin Delta System--the largest 
estuary on the west coast of North America and a source of drinking 
water for two-thirds of California's population. As a result, Bay Area 
communities help address the needs of the entire region as they pursue 
recycled water opportunities.
    Specifically, this bill would help the eight Bay Area communities 
increase their municipal water supplies through innovative and much-
needed water recycling projects.
    These projects offer significant benefits. For California and the 
Federal Government such benefits include: the preservation of State and 
Federal reservoir supplies for higher uses rather than for urban 
landscape irrigation, particularly in drought years; and, a cost 
effective, environmentally friendly, implementable solution for 
increased dry year yield in the sensitive Bay-Delta region. The 
development of this new dry year yield advances the 1992 Central Valley 
Improvement Act, which directs the U.S. Bureau of Reclamation to 
identify new dry year water yield projects. Regional and local benefits 
include: the preservation of ever-declining water supplies from the 
Sierra and Delta for higher uses; drought-proof assistance for the 
region (as you know, California's snowpack is at its lowest in 19 
years); provision of a sustainable and reliable source of water in 
light of climate change; provision of environmental enhancement 
opportunities; and results in a reduction in wastewater discharges to 
the sensitive Bay-Delta environment.
    The bill would authorize the Secretary of the Interior to 
participate in the following Bay Area Water Reuse Projects: Antioch 
Recycled Water Project (Delta Diablo Sanitation District, City of 
Antioch); North Coast County Water District Recycled Water Project 
(North Coast County Water District); Mountain View/Moffett Area Water 
Reuse Project (City of Palo Alto, City of Mountain View); Pittsburg 
Recycled Water Project (Delta Diablo Sanitation District, City of 
Pittsburg); Redwood City Recycled Water Project (City of Redwood); 
South Santa Clara County Recycled Water Project (Santa Clara Valley 
Water District, South County Regional Wastewater Authority); and, South 
Bay Advanced Recycled Water Treatment Facility (Santa Clara Valley 
Water District, City of San Jose). This Coalition or partnership is a 
great example where project sponsors have come together to purse a 
federal partnership as a region on a water supply issue, rather than as 
individual agencies.
    The bill provides that each community with a project would be 
eligible to receive 25% of the project's cost. The total cost of the 
seven projects is $110 million, but the Federal Government's share is 
only $27.5 million. State money is available for a portion of the 
project costs. For the most part, the projects are ready to proceed and 
start delivering their benefits--the projects having been repeatedly 
vetted, both internally at the local level and through the various 
steps of the federal review process. In fact, two of the projects--
Pittsburg and Palo Alto--have met USBR's strict Title XVI Feasibility 
Guidelines and are the first projects in the history of the Title XVI 
program to do so. However, Federal funding is needed for all of the 
projects to make implementation a reality.
    These seven projects are estimated to create 12,205 acre-feet of 
new water available annually in the short term, and 37,600 acre-feet 
annually in the long term, all while reducing demand on the Delta and 
on existing water infrastructure.
    It is also noteworthy that each of the sponsors of the projects 
listed in the Bill have committed to satisfying all of the USBR Title 
XVI feasibility criteria. Sponsors are not seeking to have their 
projects' legislated into compliance.
    Timing for a federal partnership is critical. Two of the seven 
projects listed in the bill, Pittsburg and Palo Alto, have received a 
State grant funding commitment which requires that construction begin 
by July 15, 2007. Without a federal partnership in place at the start 
of fiscal year 2008, the projects are underfunded and may not proceed.
    Regarding the Pittsburg project, Mr. Chairman, I want to call to 
the Subcommittee's attention one difference between S. 1475 and H.R. 
1526, the House-passed companion bill. During the committee markup 
process in the House the authorization level for the Pittsburg project 
was increased from $1.4 million to $1.75 million to reflect updated 
project cost estimates. As the Subcommittee gives further consideration 
to S. 1475 we would respectfully request that the same change be made 
to that subsection of the bill.
    Lastly, Mr. Chairman, the bill would urge the U.S. Bureau of 
Reclamation to fully fund the San Jose Area Water Reclamation and Reuse 
Project, already authorized by law and woefully underfunded to date.
    Members of the Subcommittee, water recycling offers great potential 
to states like California that suffer periodic droughts and have 
limited fresh water supplies. To address these issues, S. 1475 would 
establish a partnership between the Federal Government and local 
communities to implement a regional water recycling program in the Bay 
Area. This legislation is critical to meeting the water needs of the 
Bay Area. Accordingly, the Coalition urges support of S. 1475.
    Thank you.

    Senator Tester. Thank you for your summary. I appreciate it 
and your testimony. Thank you very much.
    We'll go to Mr. Record.

 STATEMENT OF RANDY A. RECORD, BOARD MEMBER, EASTERN MUNICIPAL 
              WATER DISTRICT, RIVERSIDE COUNTY, CA

    Mr. Record. Thank you, Mr. Chairman, good afternoon. I have 
submitted a written statement, and I have a statement here that 
I was kind of going to summarize, but Mr. Atwater is a 
colleague and a neighbor, and we work together, and he said a 
lot of things that I was going to, and I'd just as soon not 
repeat that, and you probably don't want to hear it twice.
    Senator Tester. That's fine.
    Mr. Record. I would like to say that I'm a board member for 
Eastern Municipal Water District, they are a member agency of 
the Metropolitan Water District, and I am their representative 
on that Board. I'm also a farmer in Southern California, and my 
family's been farming for--I'm fifth generation. Without 
recycled water, we wouldn't be able to farm as we have for the 
last several years.
    We wouldn't have a reclaimed distribution system, as we do 
today, if it weren't for the Federal Government helping us back 
in the eighties through P.L. 84, 984--which is a program 
administered by the Bureau of Reclamation.
    We import 80 percent of our water for Eastern Municipal 
Water District through Met, which comes from Colorado River, as 
well as Bay Delta. We all know the challenges that we have 
there. We're turning to local resources as our most reliable 
and cheapest source of water. I also should add that Riverside 
County--which Eastern is located in--is very aggressive on 
water conservation and water efficiency. We don't go out and 
try to get support for projects without doing what we can at 
home to make sure that we're taking care of the water that we 
already have.
    There are four components to H.R. 30, and by the way, I'd 
like to thank our Congressional delegation for supporting this 
bill, it passed the House earlier this year. We have a 
sanctioned wildlife recycled water storage project, which will 
allow us to build storage for reclaimed water, environmental 
benefits are obvious, but then during the summer when demands 
are high, we can pull that water back out, and help continue a 
great ag area that we have.
    We also have a citrus-growing region that relies on 
groundwater that is great water for potable use. This will help 
us get reclaimed water up to the citrus, so that we can replace 
the use of the potable groundwater with reclaimed water. We 
also need to expand the current system that we have, to reach 
more customers, and we also need to pressurize that system, so 
that we can serve smaller customers, such as landscape, for 
municipalities, and also park and rec.
    It's difficult for them to pressurize the water that they 
use. It would make more sense for us to do that as the provider 
of the water.
    I think the most important part of this is that we are, in 
Southern California, we are inland, we are really shouldering 
the burden for the growth that we've seen in California that 
supports LA and San Diego, and Orange Counties, and as the 
gentleman from Texas stated, we're also an area that the whole 
country relies on from trade. We have a lot of good importing 
that comes through our region, and we're happy to be able to do 
that for the rest of the county.
    We think it's appropriate that we have some funding to help 
us make our water system more reliable, so that we can continue 
agriculture, and we can continue to make best use of the water 
we have, use it as many times as we can before it goes onto the 
next area. Then, so farmer to farmer--I agree with what these 
gentlemen are saying. These are all good projects. At some 
point, the Federal Government needs to just spend a little bit 
more for a great benefit to the region.
    Thank you very much.
    [The prepared statement of Mr. Record follows:]
 Prepared Statment of Randy A. Record, Board Member, Eastern Municipal 
            Water District, Riverside County, CA, on H.R. 30
    Good Afternoon Chairman Bingaman and other distinguished members of 
this Subcommittee. My name is Randy Record, and I am a Board Member for 
the Eastern Municipal Water District (EMWD). I also serve as EMWD's 
representative on the Board of the Metropolitan Water District of 
Southern California. On behalf of EMWD and its Board of Directors, it 
is my privilege to present this testimony to you today on H.R. 30 and 
to discuss the water resource benefits the bill will promote. I would 
like to thank the four members of our congressional delegation for 
supporting this bill, which passed the House earlier this year by voice 
vote.
    EMWD provides water supply, wastewater collection and treatment, 
and water recycling services to over 650,000 people in one of the 
nation's most rapidly growing areas. EMWD's 555 square mile service 
area includes the Cities of Moreno Valley, Perris, San Jacinto, Hemet, 
Murrieta and Temecula, as well as unincorporated portions of Southwest 
Riverside County.
    Like most water agencies in Southern California, EMWD depends upon 
imported water from state and federal water projects, namely the 
Sacramento Bay-Delta and Colorado River, for much of its water supply. 
EMWD recognizes that increasing pressure on these resources and the 
need to balance urban, agricultural, and environmental water demands 
will further stress these state and federal water projects limiting the 
availability of water for use in our service area. We are responding to 
this challenge by being a leader in water conservation and investing 
heavily in the development of local water resources. EMWD's on-going 
programs include management and protection of existing potable 
groundwater production, brackish groundwater desalination, and 
groundwater recharge and storage. However, our largest, oldest and most 
successful local resource development effort is our water-recycling 
program.
    In Southern California, recycled water is routinely used for 
agricultural irrigation, municipal and residential landscape 
irrigation, industrial processes, environmental enhancement, and is 
even used in recreational impoundments permitted for full body contact. 
In the past 10 years, due to extensive research and elaborate public 
awareness programs, public acceptance of recycled water has been 
greatly enhanced. This coupled with the easing of regulatory 
restrictions has enabled local water agencies to tap into this most 
important resource to meet the ever-increasing need for water. Water 
recycling, until recently considered an innovative use of resources, is 
becoming commonplace as pressures on potable water supplies continue to 
grow.
    EMWD's recycling program began in the early 1980's, and currently 
EMWD sells about 21,000 acre-feet per year (AFY) of recycled water to 
customers at 320 different sites, ranking EMWD as one of the top four 
water recycling agencies in California. We have constructed more than 
130 miles of large diameter recycled water pipeline (18''--54'') which 
link five (5) regional waste water treatment facilities. In addition, 
more than 6,000 acre-feet (AF), or about two billion gallons of storage 
pond capacity have been constructed at 10 locations throughout our 
service area for seasonal storage of any surplus recycled water. This 
successful program, which meets the present needs of EMWD, would not 
have become a reality without the financial assistance provided by the 
Federal government through the PL84-984 program that is administered by 
the U.S. Bureau of Reclamation.
    EMWD's water recycling transmission system was designed to provide 
irrigation water to large agricultural customers, and agriculture still 
accounts for 60 percent of EMWD's total recycled water sales. Other 
uses include municipal irrigation such as parks, schools, golf courses, 
a regional energy center, and environmental enhancement. EMWD also 
supplies recycled water to the California Department of Fish and Game's 
San Jacinto Wildlife Area, the only wildlife area in the state to use 
recycled water. While our recycled water system is adequate to meet the 
needs of our agricultural customers, EMWD is beginning to experience 
difficulties with a rapidly growing municipal market. Our system lacks 
the operational storage, flow control and system pressure needed to 
provide the ``on-demand'' service required by municipal customers.
    As development continues in our service area, the municipal 
irrigation and industrial demand will continue to grow. And, unless 
remedied, our growing operational difficulties will ultimately limit 
our ability to serve these emerging demands with recycled water and 
will result in placing these demands on our potable water system.
    Recognizing the need to expand its recycled water program, EMWD 
developed the EMWD Recycled Water System Pressurization and Expansion 
Project, H.R. 30. H.R. 30 represents the next stage in the development 
of EMWD's water recycling program. H.R. 30 will provide vital financial 
assistance to expand an already successful water recycling program by 
constructing the facilities needed to establish operational pressure 
zones, complete the transmission system, and to extend service to new 
municipal customers.
    The project will provide local as well as regional and statewide 
benefits. EMWD's customers will benefit from the development of an 
affordable, drought-proof local water supply. Expanded water recycling 
in EMWD will also help achieve the local resource development goals 
established in the Metropolitan Water District of Southern California's 
Regional Integrated Resources Plan. At the state and national level, by 
reducing EMWD's demand for imported water from the Sacramento Bay-Delta 
and the Colorado River, the project will also support long-term water 
management efforts such as the CALFED Bay-Delta Program.
    The initial projects resulting from H.R. 30 will result in 15,000 
acre-feet of new water annually at a cost of $110 per acre-foot over 
the life expectancy of the project. This is $464 less than what we 
currently pay for imported water. In addition to stretching existing 
water supplies, H.R. 30 has significant greenhouse gas reduction 
benefits. The carbon dioxide reduction attributed to the initial 
projects is roughly 13,950--31,500 tons per year, and the energy 
savings is 31,650--71,250 megawatt-hours. The California State Energy 
Resources Conservation and Development Commission's Integrated Energy 
Policy Report (CEC-IEPR) concluded that, in many areas of the state, 
recycled water is the least energy-intensive source of new water 
supply. Increased use of recycled water statewide will reduce 
California's energy consumption and help meet the state's goal of 
reducing greenhouse gas emissions, as required by the California Global 
Warming Solutions Act of 2006.
    In summary, I would like to stress that your efforts here today are 
critically important to California and the nation. California is 
currently experiencing unprecedented multiple threats to its water 
supply including continuing drought, unstable levees in the delta, 
crumbling infrastructure, climate change concerns, and population 
growth. Recycled water is a new water supply that is available even in 
the driest years. It is not vulnerable to natural disasters such as 
earthquakes, in the same way that imported water is susceptible, and it 
requires less energy use compared to the pumping of imported supplies.
    Without the federal cost share of 25 percent that H.R. 30 would 
provide, EMWD will not be successful with developing the new water 
supply this project creates. The Bureau of Reclamation has reviewed and 
provided tentative approval for the feasibility study required for H.R. 
30 and we are awaiting the official approval notice.
    Mr. Chairman, I would like to thank you and the Subcommittee 
members again for the chance to testify before you today. Your support 
for H.R. 30 is crucial in helping make EMWD's System Pressurization and 
Expansion Project a success.

    Senator Tester. Thank you for your testimony, and I agree.
    Mr. Groth, you're up now. Rock and fire.

        STATEMENT OF LARRY GROTH, CITY MANAGER, WACO, TX

    Mr. Groth. Thank you, sir.
    Good afternoon, my name is Larry Groth, I'm City Manager of 
the city of Waco, Texas. I thank you for the opportunity to 
testify in support of H.R. 609, the Central Texas Water 
Recycling Act of 2007. We do deeply appreciate the committee's 
continued interest and leadership with regard to this critical 
issue.
    I do want to express my sincere gratitude to Congressman 
Edwards, for introducing this legislation. Congressman Edwards 
has been very supportive of water initiative in Central Texas, 
and we certainly appreciate his work on this legislation, and 
all that he does for our community.
    Waco, Texas is the urban center of a rapidly growing 
McLennan County. Waco and its surrounding cities have a long 
history of a cooperative and regional efforts on water 
resources, including joint ownership, and operation of the 
regional sewer treatment facility.
    Waco and McLennan County are fortunate to have a vibrant 
economy with a growing population, and excellent quality of 
life for residents, however, as you know, growing populations 
require more and more water.
    As recognized in the recently approved Regional Water Plan 
for the Central Texas region, population growth in the counties 
within the I-35 corridor have been rapid since 1970, and with 
all indications will continue to grow.
    Within McLennan County, all cities are expected to 
experience sustained growth over a period from 2010, to 2060. 
Waco's expected to grow about 26 percent during this period, 
and the surrounding cities will grow even more rapidly.
    In addition to growth and industrial development, as has 
been mentioned before, Central Texas must respond to drought 
conditions, and seasonal demands on our water supplies. The 
water supply storage available from Lake Waco to Central Texas 
is fixed, the use of ground water supplies must be limited to 
protect the underground aquifers.
    With growth and drought in Texas driving the need for more 
water supply in the future, how we use our limited, existing 
supplies is critical. Cities in Central Texas have invested 
significant local funds, and a number of supply enhancement, 
and water treatment projects in recent years. As a result, we 
are actively pursuing means to maximize those investments, and 
to conserve our valuable water resources through reuse.
    H.R. 609 will help us succeed in this effort, to replace 
the use of costly and limited treated water supplies for such 
uses as irrigation, cooling water, and other industrial uses.
    The Central Texas Reuse Program is a multi-dimensional 
program consisting of a number of efforts. Reclamation and 
reuse, conservation, water quality protection, environmental 
restoration, all organize into a series of projects or 
components which provide optimal use and proper management of 
limited water resources available to Central Texas communities.
    An overview report, and limited feasibility information was 
provided to Reclamation. The Reclamation staff has been very 
helpful in reviewing the report, and working with us to better 
understand Title XVI as a whole. We certainly are willing to 
submit any further feasibility studies, as required, at the 
appropriate time.
    Let me summarize the specific needs for, and the benefits 
of, reclamation and water recycling project. Today, the high-
growth areas in our community, and with the regional wastewater 
collection facilities, are basically hydraulically overloading. 
In addition, our central wastewater treatment plant is nearing 
permeated discharge capacity, which is a challenge, but also 
offers a great opportunity. We are currently in the permeating 
process for a comprehensive engineering solution to this 
wastewater challenge, through the construction of satellite, 
wastewater reclamation plants, and facilities which provide 
benefits from the reuse of reclaimed effluent. The benefits of 
satellite plants are significant. In addition to avoiding 
expensive relocation of infrastructure, and downstream 
conveyance improvements, the plants will provide capacity for 
future growth, in a high-growth corridor, but most 
significantly, the reclaimed water produced will be at 
locations that can be readily delivered to dozens of end- users 
within the nearby vicinity.
    The initial projects available for funding under this 
legislation can provide up to 10 million gallons a day for 
reused water, thereby reducing the demand on our Lake Waco. 
This is enough water in Texas to meet the needs of over 20,000 
households.
    Mr. Chairman, we strongly support H.R. 609, and its 
assistance it would provide for the Central Texas Reuse 
Program. The cities in McLennan County have committed 
significant funding for the support of the development of this 
project.
    We do welcome the opportunity to partner with Reclamation 
to design and construct a consolidated system to improve the 
efficient use of water resources in McLennan County.
    Thank you very much for allowing me to testify.
    [The prepared statement of Mr. Groth follows:]
       Prepared Statement of Larry Groth, City Manager, Waco, TX
    Good afternoon. My name is Larry Groth. I am the City Manager of 
the City of Waco, Texas. Thank you for the opportunity to testify in 
support of H.R. 609, the Central Texas Water Recycling Act of 2007 and 
for the leadership of this Committee in scheduling this hearing. We 
were privileged to also appear before you this time last year in 
support of H.R. 3218 which is identical to H.R. 609. We deeply 
appreciate this Committee's continued interesting and leadership with 
regard to the water reuse issue and in the Central Texas Water 
Recycling Act of 2007. I want to express my sincere gratitude to 
Congressman Edwards for introducing this legislation. Congressman 
Edwards has been very supportive of water resources initiatives in 
Central Texas, and we certainly appreciate his work on this 
legislation.
    Waco is the urban center of a rapidly growing McLennan County. Waco 
and the surrounding cities of Bellmead, Hewitt, Lacy-Lakeview, Lorena, 
Robinson, and Woodway have a long-history of cooperative and regional 
efforts on water resources, including the joint ownership and operation 
of the WMARSS. Waco and McLennan County are fortunate to have a vibrant 
economic with growing population and excellent quality of life for 
residents. However, with growing population there is an increasing 
demand for water. Many of the surrounding communities rely on nearby 
Lake Waco in the Bosque River basin as the primary water supply source. 
Several cities also have groundwater sources from the Trinity Aquifer. 
Electric power generation is another critical factor of the economy of 
Central Texas and is an important component of the Central Texas Reuse 
program.
    The Waco and McLennan area is within the IH-35 corridor. Population 
growth within this corridor continues to significantly outpace state-
wide growth rates. The regional water plan for central Texas states 
that population growth in counties within the IH-35 corridor ``has been 
rapid since 1970, averaging 3.9% annual.'' For this area, the future 
water demand is about 51% of the central Texas region's total demand in 
the year 2000, and it is expected to keep growing at a rapid rate. 
Within McLennan County, all cities are expected to experience sustained 
growth over the period from 2010 to 2060. Waco is expected to grow by 
about 26% during this period from a 2010 population of 121,355 to a 
2060 population of 152,715. Cities surrounding Waco will grow even more 
rapidly: the City of Hewitt is expected to growth from a 2010 
population of 11,085 to a 2060 population of 19,170 or a 51.3 percent 
increase.
    In addition to growth and industrial development, Central Texas 
must respond to drought conditions and the seasonal demands that 
drought imposes on our water supplies. With the recent heavy rains, the 
memory of severe drought conditions be grow faint; but, in fact, we 
know from experience that drought conditions will reoccur in Central 
Texas and that recent droughts have actually been more severe than in 
the past.
    The water supply storage available from Lake Waco to Central Texans 
is fixed; the groundwater supplies must be limited to wise use that 
protects our underground aquifers. With growth and drought in Texas 
driving the need for more water supply in the future, how we use our 
limited, existing supplies is decisive. Every existing water resource 
that has the potential to augment our water supplies must be conserved 
and used efficiently. This is recognized on a statewide basis by the 
Texas Water Conservation Association that has emphasized the value of 
water reuse throughout the State. Recently adopted Statewide water 
plans, under the direction of the Texas Water Development Board, have 
identified water reuse as a critical component of future strategies to 
meet water shortages in each of the 16 planning areas of the State. In 
Central Texas, and particularly among the cities located in McLennan 
County, reuse is a major component of our current plans. Reuse of 
treated wastewater effluent is included in the current expansion of the 
area's regional wastewater treatment system.
    Cities in Central Texas have invested significant local funds in a 
number of supply enhancement and water treatment projects in recent 
years. These costly efforts include water quality protection programs 
for our major surface water and groundwater resources, enlargement of 
the conservation pool of Lake Waco, and investments in advanced water 
treatment processes to meet and exceed federal and state standards as 
well as to remove taste and odor. All of these investments are 
substantial for the citizens of McLennan County and Central Texas. As a 
result, the cities are actively pursuing the means to maximize those 
investments and to conserve our valuable water resources. Water 
recycling and reuse of reclaimed wastewater effluent is therefore a key 
component of this effort. H.R. 609 will help us to succeed in this 
effort to replace the use of costly, treated water supplies for uses 
such as irrigation, cooling water and other industrial uses.
    Reuse supplies will help us cope with seasonable demands and peak 
water use. With temperatures in Central Texas that typically reach over 
100 degrees during the summer, we must respond to the seasonal effects 
on water use and water demands. To help address the spikes in demand 
due to seasonal water use, the community of cities in McLennan County 
is incorporating reuse into the current plans to expand the regional 
wastewater treatment system. As opposed to expanding the central 
wastewater treatment located in a remote, downstream area, the 
expansion will be accomplished with ``satellite'' wastewater treatment 
plants that will be located in areas near the high growth corridors. 
This growing areas that include industrial, commercial, and residential 
as well as park lands and golf courses owned by the cities, will have 
the opportunity to reduce dependence on the use of costly treated water 
by having high quality, wastewater effluent available for irrigation 
and industrial uses. The reuse of treated wastewater effluent is the 
priority component of the ``Central Texas Reuse Program.''
    The Central Texas Reuse Program is multi-dimensional consisting of 
a number of efforts--reclamation and reuse, conservation, water quality 
protection, environmental restoration--organized into a series of 
projects or components to provide optimal use and proper management of 
the limited water resources available to the Central Texas community. 
The need for proper water resources management to optimize the use of 
the limited surface and ground water supplies in Central Texas has been 
recognized by the City of Waco and the cities comprising the Waco 
Metropolitan Area Regional Sewerage System. Working together these 
cities support the Central Texas Reuse program, which is a 
comprehensive program to optimize on a regional basis the area's water 
resources through conservation, reuse and recycling projects. The 
efforts will include municipal, industrial and electric power 
generation customers. The Central Texas Water Recycling Act will help 
support the efforts to provide sustainable water supplies in this area 
of Texas.
    An an overview, a feasibility report on the Central Texas Reuse 
Program was submitted to the Bureau of Reclamation. The Reclamation 
staff has been very helpful in reviewing the report and working with us 
to better understand the Title XVI as a whole.
    With this background, let me summarize the specific need for and 
benefits of the reclamation and water recycling project. Today, the 
growth areas of the regional wastewater collection facilities are 
hydraulically overloaded. In addition, the Central Wastewater Treatment 
Plant, which currently treats all wastewater generated by the serves 
all of the six cities that comprise the regional wastewater system is 
nearing its permitted discharge capacity. The Texas Commission on 
Environmental Quality is requiring plans for the expansion of the 
existing wastewater treatment capacity.
    A comprehensive engineering solution to this wastewater challenge 
is the construction of a satellite wastewater reclamation plants and 
facilities to in part provide benefits from the reuse of the reclaimed 
effluent. The benefits of satellite plants are significant, in addition 
to avoiding expensive relocation of infrastructure and downstream 
conveyance improvements (estimated at $2.1 million), the plants will 
provide capacity for future growth in the ``high growth'' corridor, and 
significantly, the reclaimed water produced at the proposed reclamation 
plant can be readily delivered to dozens of end users within the nearby 
vicinity. Not only would this reclaimed water be a revenue generator, 
it would also help reduce the summertime peak water demands at the 
regional water treatment plant.
    In summary, this legislation will not only provide for conservation 
of our community's water supply but will also reduce cost to the 
taxpayers and provide benefits to the environment as treated effluent 
is not dumped into river but is used to sustain habitat in our parks 
and recreational areas. Recycling of highly treated wastewater provides 
an additional valuable resource for a large number of identified reuse 
applications, including golf courses, landscape irrigation, industrial 
cooling water, and other industrial applications. The initial projects 
eligible for funding under this legislation can provide up to 10 
million gallons per day of reuse water; thereby, reducing the water 
demand on Lake Waco. This is enough water supply to meet the needs of 
over 20,000 households.
    Mr. Chairman and members of this subcommittee, we strongly support 
H.R. 609, and the assistance it will provide for the Central Texas 
Reuse Program. The community of cities in McLennan County has committed 
significant funding to support the development of this project.
    We welcome the opportunity to partner with the Bureau of 
Reclamation to design, plan and construct a consolidated system to 
improve the efficient use of water resources in McLennan County.
    Thank you for allowing me to appear before you today.

    Senator Tester. Mr. Long.

    STATEMENT OF BILL LONG, CHAIRMAN, NORTH BAY WATER REUSE 
               AUTHORITY, NORTH SAN PABLO BAY, CA

    Mr. Long. Good afternoon, Mr. Chairman. My name is Bill 
Long, and I am Chair of the North Bay Water Reuse Authority.
    I'm pleased to be here today to support the interests of 
Sonoma, Napa, and Maroon Counties, in their efforts to address 
the problems of agricultural and urban water supply, wastewater 
discharge, and the restoration of critical ecosystems.
    The North Bay Water Reuse Program was developed to address 
all of these concerns, providing solutions that have multiple 
benefits. I'm grateful, on behalf of the counties, for the 
support of Senators Feinstein and Boxer, in introducing the 
North Bay Water Reuse Bill of 2007.
    The North Bay Water Reuse Program would significantly 
reduce wastewater discharges into San Pablo Bay, which is part 
of San Francisco Bay, by providing the infrastructure necessary 
to treat wastewater from several communities, and use it to 
irrigate vineyards, restore wetlands, and meet urban needs.
    The Program will provide 21,000 to 29,000 acre feet of 
recycled water each year. Since the total demand for the 
vineyards in the program area is only 12,600 acre feet, water 
to meet all of the irrigation needs--it will be available to 
meet all irrigation needs, and provide water to help restore 
wetlands.
    During the winter months, when irrigation demands are 
significantly reduced, a large part of the recycled water would 
be diverted to some saline ponds along San Pablo Bay. With 
infusions of fresh water, these salt ponds--currently devoid of 
life--will eventually be returned to their historical aquatic 
and wetland habitat. This will allow the habitat to, once 
again, be used by shoreline and migratory birds, especially 
during the late fall, winter, and early spring, when hundreds 
of thousands of birds migrate along the Pacific flyway.
    Additionally, since the recycled water supplies created by 
the program would be used to replace water that vineyards now 
draw from local streams, natural flows of water would be left 
in streams for multiple benefits to the environment. There 
would be enough water in the streams to restore the shrimp 
population in many locations, including several places where 
the shrimp no longer exist.
    Also, with additional water left in streams, the habitat 
for threatened populations of salmon and steelhead will be 
substantially improved, helping with the recovery of these 
species.
    As you know, California is facing critical water shortages, 
and the situation expected only to get worse in the future. For 
this reason, the State of California is aggressively promoting 
what it calls Integrated Regional Water Resource Management. 
The goal is to improve operational and economic efficiencies of 
water management, by establishing regional partnerships, that 
can optimize water use for multiple benefits.
    The North Bay Program will allow a local, regional, State 
and Federal partnership that will reduce long-term operational 
costs, and provide a new, high-quality, recycled water source. 
This water source will be flexible enough to allow water to be 
distributed where it is needed, whether it is for irrigation, 
environmental, or urban uses.
    Let me also take a moment to point out the multiple energy 
benefits of this program. Coastal and estuarial wetlands 
sequester large quantities of carbon-rich sediments from 
watersheds, storing as much as 40 percent of global, 
terrestrial carbon.
    Also, the program partners are installing energy-efficient 
projects, such as solar panels, and low energy pumps to help 
reduce energy needs.
    We are committed to operating the most sustainable, and 
energy-efficient manner in playing our part to reduce impact of 
global warming.
    We desperately need more win-win projects like this in the 
North Bay, and I know the same is true for the rest of 
California and the arid West. We are nearing completion of a 
feasibility study for this study in collaboration with our 
Federal partner, the Bureau of Reclamation. The study bears out 
the points I've already made today, and we are eager to move 
forward, and believe it is a national model of innovative, 
regional approaches to sustainable and efficient and optimized 
water management.
    I thank the subcommittee for its consideration of this 
worthwhile program, and I again would like to thank Senators 
Boxer and Feinstein for having the vision to promote this 
important legislation. Thank you.
    [The prepared statement of Mr. Long follows:]
   Prepared Statement of Bill Long, Chairman, North Bay Water Reuse 
             Authority, North San Pablo Bay, CA, on S. 1472
    Good morning Chairman Bingaman and Members of the Subcommittee. My 
name is Bill Long and I am Chairman of the North Bay Water Reuse 
Authority in the North San Pablo Bay region of California. I am here 
today to represent interests in Sonoma, Napa and Marin Counties. I am 
honored to be here and grateful that Senators Feinstein and Boxer have 
introduced the North Bay Water Reuse Bill of 2007. The North Bay Water 
Reuse Program addresses not only the problems of agricultural water 
supply and wastewater discharge requirements facing the North Bay 
region, but also aids in the restoration of aquatic and wetland 
ecosystems. Furthermore, it also is a model for innovative water 
efficiency management approaches that are particularly well suited for 
application in California and much of the arid west.
    The North Bay Water Reuse Program is a unique regional effort that 
will meet the needs of urban and agricultural water users and the 
environment. Existing water supplies are being stretched to the limit 
and we must take advantage of the proven technology of using high 
quality recycled water in place of precious and limited potable water 
sources. The North Bay Water Reuse Program will provide new water 
supply while at the same time reduce diversions from streams and rivers 
that are already over-tapped.
                       regional water challenges
    The North Bay Region of California is north of San Francisco on the 
San Pablo Bay, part of the Sacramento-San Joaquin Delta and San 
Francisco Bay system, which is the focus of a long-term federal and 
state environmental restoration effort.
    Many of the growing urban communities of the North Bay region 
currently discharge their treated wastewater into the San Pablo Bay 
(the Bay). By the year 2020, the region's treatment plants will be 
discharging 36,000 acre-feet of wastewater into the Bay each year. This 
method of wastewater disposal is not sustainable in the long-term.
    Meanwhile, agricultural producers in the North Bay region have 
experienced, and will continue to encounter, major water shortages. One 
recent drought was so severe that some growers resorted to trucking 
water to their vineyards to irrigate their grapes. As the population 
grows in California, so too will the strain on water supplies in a 
region already struggling with a severe groundwater overdraft and 
dwindling streams and rivers.
    As agencies and farmers grapple with these problems, state and 
federal authorities are working to find a way to restore 9,000 acres of 
tidal marshes in the North Bay that were converted to solar salt 
evaporation ponds during the 1950s. Today, approximately 1,900 of those 
ponds sit as sterile, saline waste ponds unsuitable to sustain 
wildlife. Finding a reliable source of non-salt water is essential to 
rehabilitating these wetlands.
             urban, agricultural and environmental benefits
    The North Bay Water Reuse Program would significantly reduce 
wastewater discharges into the San Pablo Bay by providing the 
infrastructure necessary to gather treated wastewater from several 
communities and deliver it as irrigation water for vineyards and other 
agricultural uses in the summer. During the off-season, the water would 
be sent to the salt ponds to reduce, and eventually eliminate, the 
concentrations of highly saline water.
    By implementing the Program, we can provide 21,000 to 29,000 acre-
feet of recycled water to meet all of the irrigation water needs of 
down-valley vineyards, thereby leaving water for in-stream beneficial 
uses and reducing groundwater overdraft. These amounts would also be 
sufficient to offer cities in the region supplies to meet their 
recycled water needs.
    The recycled water supplies would be used by vineyards to replace 
water they now draw from regional streams. These streams were 
historically home to California fresh water shrimp, as well as to small 
populations of anadromous salmon and steelhead. California freshwater 
shrimp now reside only in a small number of isolated pockets due to 
alteration of stream habitat, particularly by water diversions and 
removal of riparian vegetation. Diversions for agricultural have left 
only remnant populations of steelhead and salmon in these streams.
    By providing growers with an alternative source of water, the North 
Bay Water Reuse Program would make it possible to maintain enough water 
in the streams to restore shrimp population in several places where 
they have ceased to exist. In addition, habitat for the threatened 
populations of salmon and steelhead will be tremendously improved, 
which will assist in the recovery of the species.
    During the winter months when irrigation demands are significantly 
reduced, a large part of the recycled water supply made available by 
the Program would be diverted to restoration of the saline ponds.
    With infusions of freshwater, the ponds will eventually be used 
again by bird populations, especially during late fall, winter and 
early spring as migration along the Pacific Flyway occurs. The 
population numbers of various species wintering in the region run into 
the tens and sometime hundreds of thousands of birds. Shorebird counts 
in recent years range up to one million wintering individuals. They use 
all available productive wetlands, traveling from site to site to feed 
on invertebrates. Waterfowl use also is high, with populations of 
various species in the tens of thousands, ranging up to about 100,000 
individuals within each species. The California Department of Fish and 
Game reports that there was much more waterfowl use of the site before 
they were converted to salt ponds. If restored to tidal action, the 
site also can support estuary fish such as Delta smelt and other 
species.
                         summary of legislation
    S. 1472 would authorize the Secretary of the Interior to 
participate in the North Bay Water Reuse Program through the Bureau of 
Reclamation, which is at the forefront of the larger Bay-Delta 
restoration effort. The bill authorizes the Secretary to provide 
technical and financial assistance for a phased implementation of the 
North Bay Water Reuse Program. The Feasibility Study and Environmental 
Documents are expected to be completed by the end of 2008. 
Implementation of the Program could begin the following year. S. 1472 
would provide federal financial assistance for planning, design and 
construction of regional and sub-regional water treatment and 
distribution systems, limited to the lesser of 25 percent of the total 
cost or $25 million.
              proven benefits and safety of recycled water
    Recycled water is now used widely on many crops in many areas. Many 
vintners in the North Bay region already apply recycled water from 
regional treatment plants to their vines. The only reason more growers 
don't use recycled water is because delivery pipelines have yet to be 
constructed.
    Recycled water is an excellent solution to our agricultural water 
shortages in California. Recent reports from the State Water Resources 
Control Board estimate that 48% of the total volume of California's 
reclaimed water is used for agricultural irrigation.
    Tertiary treated water is a proven product, here in California and 
around the world. In Monterey County, 12,000 acres of vegetable crops 
are irrigated with reclaimed water in a program that was started in the 
mid 70's. In Florida's Water Conserv II program citrus crops are 
irrigated in the worlds largest agricultural reuse program.
    The trend in agricultural reuse projects is growing around the 
world and countries such as Australia have over 50 active programs 
using recycled water. All of these examples have been rigorously 
studied by the scientific community and it has been demonstrated that 
reclaimed water is a safe, healthy, sustainable water supply for 
agriculture. Grape growers around the region are eager to participate 
in the Program.
                               conclusion
    In summary, the North Bay Water Reuse Program is a model for the 
future. It is a win-win project that will protect the environment, as 
well as meet the future water needs of urban and agricultural water 
users in the North Bay region of California. It will require vision and 
broad collaboration to make the program a success. Our federal partners 
are critical to the success of this collaboration.
    The communities of the North Bay are grateful to Senators Feinstein 
and Boxer for introducing the North Bay Water Reuse bill. It will allow 
us to embark on a Program that can be replicated nationwide. It will 
help assure that agricultural and environmental water supply needs in 
the North Bay region are permanently met, groundwater basins are 
recharged, stream flows for threatened fish species are enhanced, and 
discharges into the San Francisco and San Pablo Bay are reduced.

    Senator Tester. Thank you very much, Mr. Long, I appreciate 
your testimony.
    I appreciate the testimony of all the panelists.
    We'll start with Mr. Atwater. You note, as others have, 
that it's imperative for Reclamation to increase the funding 
through Title XVI to meet the water demands in your neck of the 
woods. What are the implications of Reclamation not increasing 
the Title XVI projects?
    Mr. Atwater. When you consider, for example, the Colorado 
River provides drinking water supplied to all the major 
metropolitan cities in that area, from Denver to Salt Lake City 
to Albuquerque, to Phoenix/Tucson, Las Vegas and the 18, 19 
million people in the metropolitan LA/San Diego area--if we 
don't stretch our supplies, we're talking about major economic 
hardships. This year, Denver has to release water they normally 
divert from the Colorado River down the river to meet the 
treaty obligations with Mexico and the Lower Basin States.
    We're in a long-term sustained drought. Every one of those 
major metropolitan areas are actively looking at ways to 
stretch their supply in a more efficient way. Whether it's--as 
Randy pointed out, farmers in the same river basic, or we in 
urban settings--we have the largest concentration of dairies in 
my area, and our largest customer are the dairies--we're 
talking about major economic hardship if we don't develop these 
supplies.
    Going back to my earlier testimony, 5 percent of the 
Bureau's budget would develop more water supply than the rest 
of the Bureau's budget to do these water recycling projects. To 
me, that's a pretty clear, compelling argument why we ought to 
increase the funding, and move forward on these projects now. 
We don't know how long this drought's going to last, and how 
water shortages, you know, every year we're living off of how 
much snow we're going to get next winter.
    Senator Tester. Right.
    Along those same lines, then, the Inland Empire and 
Cucamonga Projects--if, if the Federal support is not 
immediately forthcoming, due to the backlog that Mr. Todd 
talked about, given the fact that the Federal planning dollars 
represent about 10 percent of the overall project costs, will 
they still be constructed?
    Mr. Atwater. Certainly that's a decision of our Board of 
Directors and our rate payers, and certainly the State of 
California. We seek help from them, and they've been very 
helpful, they've proved their first two phases. I think the 
reality is, it will slow us down. When you consider that that 
10 percent investment leverages that much money, when you take 
that and extrapolate that with all of the projects that we've 
talked about today, you really do get a large bang for you 
buck, so to speak, value-added, and you start seeing the 
compelling opportunities, whether it's in Texas, Colorado, 
Arizona or California. So, those of us that, you know, have 
been working on the water wars for a long time--solving water 
problems take generations. I don't think we have the time to 
wait another generation to solve these problems.
    Senator Tester. OK, thank you.
    Mr. Darling, there was some difference in testimony between 
what Larry Todd said about the information that was in, 
particularly on the Antioch Project. You said all of the 
information was in, I believe Mr. Todd said it wasn't--the only 
thing I ask is this: You're both here. Get together and figure 
out what you don't have, or what you have, and it might have 
got lost in the mail, who knows. So, you can get it squared 
away.
    In relation to--if my notes are right, if my notes are 
right--without getting into a debate about what's in and what's 
out, the South Santa Clara County Project, all of the 
information is not in on it yet, if that's--a head nod will 
work, yeah? That's correct?
    Mr. Darling. That's correct, that's correct.
    Senator Tester. The others are, from your perspective, 
right?
    Mr. Darling. Two of them are actually, not only the 
information's in, but actually declared feasible----
    Senator Tester. Right.
    Mr. Darling. Those now are going under construction, 
because we'd lost our State funding. The State stepped forward, 
so----
    Senator Tester. Good.
    Mr. Darling [continuing]. We'd lose it if we didn't move 
forward.
    Antioch Project, all information is in, the NEPA process is 
near complete----
    Senator Tester. OK.
    Mr. Darling [continuing]. But the others are not quite as 
far along, but they, we do want them to be authorized for the 
Bureau to participate in the final feasibility determinations, 
ultimately, then, design and construction.
    Senator Tester. OK, good.
    Have all the funding arrangements been made for the 
participating communities to cover the local share of the $110 
million in estimated costs, then?
    Mr. Darling. The typical formula that we're proceeding 
forward with, for example, on the Pittsburgh project, is that 
the local funding share is 50 percent, the State funding share 
is 25 percent, and the Federal funding share is 25 percent, 
that's our target funding for that project.
    To date, on the Pittsburgh project, costs went up, as they 
normally do in the--the local cost share has increased, and the 
local agencies have agreed to that. The State cost share is in 
place--25 percent--and so the Federal cost share is the only 
lacking portion for funding for that project.
    Senator Tester. OK, so the local cost share is in place?
    Mr. Darling. Yes, the local communities are very supportive 
of these, of this program.
    Senator Tester. OK, and what are the implications if the 
Federal funds don't come in the short term?
    Mr. Darling. Two of the projects, as I mentioned, have gone 
to construction with the idea that the local agencies are 
fronting the Federal cost share, so we're here trying our 
darndest to get through the process, and secure that Federal 
cost share.
    I believe the others may not happen at all. I think that, 
that that--for example, on the Antioch Project, that Federal 
cost share is $2.25 million, and simply is not available in the 
City funding in order to move forward. So, I believe that would 
be a lost opportunity.
    I can't speak for the other three project in the Bay Area, 
but in talking with the staff, it's a similar situation that 
the State and Federal partnerships are the tipping point. 
Without them, the projects won't go forward.
    Senator Tester. OK.
    Mr. Long, if--you stated the feasibility study for the 
environmental work for the North Bay Program is not expected to 
be completed for a year and a half in your testimony, is that 
correct?
    Mr. Long. That's correct, yes, the end of 2008.
    Senator Tester. OK, has the North Bay Authority identified 
specific projects that are to be constructed under the program?
    Mr. Long. Yes, they have.
    Senator Tester. How many do you expect to construct, and 
what is the expected cost of these projects?
    Mr. Long. The first Phase includes six or seven projects 
with a total cost of just over $100 million.
    Senator Tester. OK. Has the financing been put in place for 
those projects?
    Mr. Long. No, our goal----
    Senator Tester. Local financing, I'm talking about.
    Mr. Long. Excuse me?
    Senator Tester. Is, is--I'm sorry, let me clarify that. Has 
the financing been put in place to pay, to pay by the local 
communities?
    Mr. Long. The goal is similar to the statement by Mr. 
Darling. Our target is 50 percent local, 25 percent from the 
State, from State bond money which is available, and more 
becoming available, and 25 percent from Federal source.
    Senator Tester. Is that financing in place for those?
    Mr. Long. Not yet. These projects are all in the design 
stage at this point.
    Senator Tester. OK, all right. Thank you very much.
    Mr. Record, right? Good. What do you grow?
    Mr. Record. I used to grow alfalfa, field corn, wheat, 
barley and then the vegetable side was potatoes, carrots, 
onions, bell peppers. Presently we still have citrus, and 
probably going to start into some wine grape production, but 
that won't be in this service area.
    Senator Tester. Got ya. I appreciate what you do for a 
living. We have a common connection, there.
    Mr. Record. Same here.
    Senator Tester. You state that recycled water provide by 
your project will cost about $110 an acre foot, which is far 
less than what it costs to import the water--five times that 
amount, over five times that amount. Will the recycled water 
reduce the demand for imported water? Or is it simply needed to 
keep up with new demand in your service area?
    Mr. Record. It's both. If we're going to continue to meet 
the demand, we've got to make use of every source that we have.
    But there are other uses that are available now, that we 
can supply with reclaimed water to free up the potable water. 
So, it's, it's not only for the growth that's coming, but it's 
for existing things that are going on in the area at the moment 
that we can use the water for.
    Senator Tester. It will reduce your demand for imported 
water, of course.
    Mr. Record. Absolutely.
    Senator Tester. Do you agree with Reclamation's assessment 
that all necessary studies to determine the project's 
feasibility have not been completed?
    Mr. Record. I agree with that. Let me just say that we're 
in that process. That we will continue this process, and we 
will continue and do as many of these project as we can, 
regardless of what happens here.
    Senator Tester. Gotcha.
    Mr. Record. They're that important. But, we won't be able 
to do it to the degree that we would like to, and we won't be 
able to do all of the projects that we'd like to do.
    Senator Tester. I would assume that the feasibility is 
important?
    Mr. Record. Absolutely.
    Senator Tester. Do have an expectation of when those 
studies will be complete?
    Mr. Record. Yes, we think in about 6 months. I mean, we 
think that the initial environmental impact report is about a 
year away from being completed.
    Senator Tester. OK, I--that's good. I think you've already 
answered this, but I'll ask it anyway. If the Federal funding 
is not available in the short term, will you still proceed with 
the Project?
    Mr. Record. Yes, definitely.
    Senator Tester. OK, thank you much. I appreciate it.
    Larry, earlier, this year, you had sent a letter to 
Chairman Bingaman, indicating that the communities in Central 
Texas has already engaged in permitting activities for the 
project, and made financial arrangements for construction and 
long-term O&M. Is the Project ready to go, from a State and 
local perspective? Including the permits and financial 
arrangements?
    Mr. Groth. Yes, sir. The permits are still in the process, 
so we don't have full approval yet from the State, but we 
anticipate getting that pretty quickly.
    From a financial standpoint, all of the cities have put 
enough money up to at least do the Project, shy of the 
Reclamation part. If this funding is not approved, we'll have 
to make a decision on how to fund the Reclamation portion, or 
delete it from the Project.
    Senator Tester. OK, I'll ask you the same question I've 
asked just about everybody else--is the Federal funds necessary 
for you to move forward?
    Mr. Groth. Absolutely.
    Senator Tester. OK. Do you agree with Reclamation's 
assessment that the Project is not yet proved to be feasible?
    Mr. Groth. That's correct. At this point, we've only 
supplied an overview report to them, and some limited 
feasibility information. We still need to do a feasibility 
study.
    Senator Tester. OK. I assume you're moving forward with 
that, ASAP, if you need the money to get the Project going?
    Mr. Groth. Yes, sir.
    Senator Tester. I'll just, quickly, in closing, thank 
everybody for being here today. I don't have any more 
questions. I appreciate your willingness to travel. You know, I 
come--just as a sidebar--I'll tell you, I come out of State 
government, where we have State funds, much as many of your 
States deal with where we help supplement local--and, but the 
Federal dollars are critically important.
    I'll just tell you, I think that the work that the people 
at the local level is doing is good, I think that you need to 
jump through the hoops that's necessary for the feasibility 
studies and other things like that, to make sure that it's 
well-planned, so that the money is spent in the way it needs to 
be spent, and I think that you guys are--some are there, some 
are well on their way.
    But, I cannot tell you--especially with the--you guys are 
talking about no snow pack, same thing where I live. You're 
talking about--I mean, we've got rivers that are drying up, 
we've got fish that are dying, we've got all sorts of things 
that are happening because of low water, hot water, and it's a 
bad deal.
    You guys are doubly impacted, because we've got 930,000 
people in our State, you've probably got 930,000 people in a 
county. So, your problems are impacted.
    But, I will tell you from a Federal level, I agree with the 
gentleman, I think it was Mr. Atwater, or Mr. Darling, one of 
you two that said that if you increase it, where it should be, 
at 5 percent, at the Federal level, it can have tremendous 
impacts at the local level. I think that, from my perspective, 
that would be good business. The overall scheme in the Federal 
dollars that we deal with, it's less than a rounding error.
    So, it's important.
    I want to go back, without preaching, thank every one of 
you folks for being here today.
    Mr. Todd, I want to thank you very much, also, for being on 
the first panel. If Chairman Edwards was here, I would thank 
him, too. You can pass that along to him, Mr. Groth.
    Thank you very much, the meeting is adjourned.
    [Whereupon, at 3:42 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                  Washington, DC, October 22, 2007.
Hon. Tim Johnson,
Chairman, Subcommittee on Water and Power, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: I am pleased to provide the responses prepared 
by the Bureau of Reclamation to the questions submitted by the 
Subcommittee on Water and Power of the Senate Committee on Energy and 
Natural Resources following the Wednesday, August 1, 2007, hearing on 
Water Project hills: S. 1054 and H.R. 122 (Feinstein), A bill to amend 
the Reclamation Wastewater and Groundwater Study and Facilities Act to 
authorize the Secretary of the Interior to participate in the Inland 
Empire regional recycling project and in the Cucamonga Valley Water 
District recycling project; S. 1472 (Feinstein), A bill to authorize 
the Secretary of the Interior to create a Bureau of Reclamation 
partnership with the North Bay Water Reuse Authority and other regional 
partners to achieve objectives relating to water supply, water quality, 
and environmental restoration; S. 1475 (Feinstein), A bill to amend the 
Reclamation Wastewater and Groundwater Study and Facilities Act to 
authorize the Bay Area Regional Water Recycling Program, and for other 
purposes; H.R. 30 (Issa), To amend the Reclamation Wastewater and 
Groundwater Study and Facilities Act to authorize the Secretary of the 
Interior to participate in the Eastern Municipal Water District 
Recycled Water System Pressurization and Expansion Project; H.R. 609 
(Edwards), To amend the Reclamation Wastewater and Groundwater Study 
and Facilities Act to authorize the Secretary of the Interior to 
participate in the Central Texas Water Recycling and Reuse Project, and 
for other purposes; and H.R. 1175 (Sanchez), To amend the Reclamation 
Wastewater and Groundwater Study and Facilities Act to increase the 
ceiling on the Federal share of the costs of phase I of the Orange 
County, California, Regional Water Reclamation Project.
    Thank you for the opportunity to provide this material to the 
Subcommittee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
        Responses to Questions From Senator Bingaman on S. 1472
    Question 1. S. 1472 (North Bay). As I understand it, there are 
several ongoing initiatives in California to develop strategies to 
restore the health of the Sacramento-San Joaquin Bay Delta. Is 
Reclamation involved in those initiatives and, if so, will the North 
Bay Water Reuse Program contribute to the larger restoration effort?
    Answer. Reclamation is involved with the implementation of the 
CALFED Record of Decision, the Bay-Delta Conservation Program, the 
Delta Vision program, the Pelagic Organism Decline studies, and many 
more. It is possible the North Bay Water Reuse Program could contribute 
to the Bay-Delta restoration efforts by reducing discharges of tertiary 
treated effluent into San Pablo Bay. However, further environmental 
analyses would need to be completed in order to confirm the 
environmental benefits.
    Question 2. S. 1472 (North Bay). Testimony by the North Bay Water 
Reuse Authority indicates that the feasibility study and environmental 
documents for the program will be complete by the end of 2008. Do you 
agree with the timeframe and will Reclamation have completed its review 
of those documents in a similar timeframe?
    Answer. If the intent is to authorize the North Bay Water Reuse 
Program as a Title XVI project, then the feasibility study and 
environmental documentation could he completed by the end of 2008. As 
stated in Deputy Commissioner Larry Todd's testimony on August 1, 2007. 
it is unclear if the intent of S. 1472 is to authorize the North Bay 
Water Reuse Program as a Title XVI project pursuant to the Reclamation 
Wastewater and Groundwater Study and Facilities Act (Public Law 102-
575).
    However, if the intent of S. 1472 is to authorize the North Bay 
Water Reuse Program as something other than a Title XVI project, then 
Reclamation would not have authority to conduct a feasibility study. 
Such a feasibility study would need to be specifically authorized by 
Congress and would need to meet the requirements of the ``Economic and 
Environmental Principles and Guidelines for Water and Related Resources 
Implementation Studies, ``also known as the P&Gs. S. 1472, as currently 
written, would not provide that feasibility study authority: therefore, 
a feasibility study following the P&Gs would not be completed by the 
end of 2008.
    Question 3a. S. 1475 (Bay Area). With respect to the Bay Area 
Regional Program, your testimony states that 4 of the projects within 
the bill are not yet considered feasible by Reclamation. Two of these 
projects--the South Santa Clara Project and the Antioch Project--need 
completion of a review of the feasibility reports and environmental 
documents. When do you expect for a review of those feasibility reports 
to be completed? Is this something that can be done expeditiously?
    Answer. Significant progress has occurred in the review of the 
Antioch Project feasibility report and environmental documents. 
Reclamation provided comments on the feasibility report to Delta Diablo 
Sanitation District (DDSD) and DDSD very quickly incorporated the 
comments and re-submitted the feasibility report.
    Reclamation is setting up a review team and is trying to complete 
the review by the end of October 2007. Reclamation has completed the 
National Environmental Policy Act compliance and related endangered 
species and cultural resources activities.
    Reclamation has completed a preliminary review of the South Santa 
Clara Project feasibility report and environmental documentation and 
has identified to the Santa Clara Valley Water District (SCVWD) areas 
that require additional documentation. The length of time to complete 
the review and approval of the feasibility report and environmental 
documentation will depend on the timelines and adequacy of the 
supplemental information provided by the SCVWD.
    Question 3b. Have you received any reports for the other projects?
    Answer. On February 15, 2006, Reclamation completed the ``Findings 
of the CAI FED/Title XVI Review'' (Report), for projects identified in 
the Southern California Comprehensive Water Reclamation and Reuse Study 
and the San Francisco Bay Area Regional Water Recycling Program. The 
Report concluded that the feasibility reports and environmental 
documents for the North Coast County Water District Recycled Water 
Project and the Redwood City Recycled Water Project were not sufficient 
for Reclamation to determine if those projects are feasible. Since that 
time, we have not received any additional information from the City of 
Pacifica or the City of Redwood City.
    Question 4. H.R. 1175 (Orange County). It sounds like the 
Administration does not support the Orange County bill because of the 
precedent it might set in increasing the federal contribution ceiling 
to an amount greater than $20 million. Have there been any other 
individual Title XVI projects that have received a federal contribution 
in excess of $20 million? Is the Orange County program one project or a 
number of different projects?
    Answer. Concerns about this bill extend beyond the precedent set by 
increasing cost ceiling above $20 million. Given Reclamation's 
budgetary constraints, anyincrease in cost ceiling competes with other 
already authorized projects, the needs of aging water infrastructure, 
and environmental restoration projects. At this time the Administration 
does not support new authorizations or increasing the ceilings for 
Federal cost sharing of water recycling projects.
    Four of the five construction projects that were authorized when 
Title XVI (P.L. 102-575) was enacted in 1992 (San Jose, San Diego, Los 
Angeles, and San Gabriel Basin, all located in California) have 
exceeded federal contributions of $20 million. Section 1631(d)(2) 
established the ceilings for these projects based on the estimated 
federal share included in Reclamation's FY 1997 budget request. In 
addition, P.L. 108-418 increased the ceiling for the San Gabriel Basin 
project. The specific projects, ceilings, and funds provided (including 
all appropriations, rescissions, underfinancing, and fund transfers) 
through FY 2007 are listed below.


----------------------------------------------------------------------------------------------------------------
                            Project                                    Ceiling            Funding thru FY 2007
----------------------------------------------------------------------------------------------------------------
San Jose Area.................................................         $ 109,959,000               $ 27,600,000
San Diego Area................................................         $ 172,590,000               $ 83,905,500
Los Angeles Area..............................................          $ 69,970,000   $ 69,970,000 (completed)
San Gabriel Basin.............................................          $ 44,590,000               $ 31,678,000
----------------------------------------------------------------------------------------------------------------

    The Orange County Regional Water Reclamation Project, which is 
authorized by Section 1624, is a single project now called the 
Groundwater Replenishment system, sponsored by the Orange County Water 
District and the Orange County Sanitation District.
    Question 5. General. The following reclamation water recycling 
bills have been passed by the House: H.R. 786 (LA County); H.R. 1139 
(Riverside-Corona); H.R. 1140 (San Juan-Capistrano); H.R. 1737 (GREAT 
Project); H.R. 1503 (Avra/Black Wash); H.R. 1725 (Rancho California); 
and H.R. 716 (Santa Rosa). Please provide a brief summary on the status 
for assessing the feasibility of the projects contemplated by each of 
those bills.
    Answer. H.R. 716 (Santa Rosa Water Reuse Plan).--The City of Santa 
Rosa provided feasibility reports and environmental documentation to 
Reclamation on June 25, 2007. The City's transmittal letter indicated 
their desire for Reclamation to delay its review until H.R. 716 is 
enacted into law. On July 20, 2007, Reclamation sent a letter to the 
City that identified options by which Reclamation could initiate its 
review sooner, if requested by the City. Reclamation has not received a 
response to that letter.
    H.R. 786 (Los Angeles County Water Supply Augmentation Project).--
Reclamation has been involved in the planning of this project for 
several years. No formal feasibility study has been completed to date.
    H.R. 1139 (Riverside-Corona Feeder Project).--This project is not a 
Title XVI project. If enacted, this legislation would authorize 
construction of the project without any requirements to assess its 
feasibility using funds provided in FY 2006. Reclamation has been 
working with the Western Municipal Water District to complete 
compliance with the National Environmental Policy Act (NEPA), for the 
project.
    H.R. 1140 (South Orange County Recycled Water projects).--This bill 
would authorize the San Juan Capistrano Recycled Water System and the 
San Clemente Reclaimed Water Project. Reclamation has met with the City 
of San Juan Capistrano concerning their project, and has provided 
guidance towards meeting feasibility requirements and NEPA compliance. 
Reclamation has not been involved in the San Clemente project to date.
    H.R. 1737 (City of Oxnard GREAT Project).--Reclamation has had 
meetings with the City of Oxnard, and has provided the City with advice 
concerning NEPA compliance. No documentation of feasibility has been 
submitted to date.
    H.R. 1503 (Avra/Black Wash).--Reclamation has been working with 
Pima County to review the technical, regulatory and contractual issues 
involved in the project but discussions have been preliminary. To date, 
the technical studies of the project are not complete and a feasibility 
report that meets the requirements for feasibility of Title XVI 
projects has not been submitted.
    H.R. 1725 (Rancho California Water District Recycled Water 
project).--The Rancho California Water District has submitted a 
feasibility study for Reclamation's review and approval. The study was 
received on July 18, 2007 and reviewed. Reclamation notified the 
District that the study lacked needed financial information. The 
additional information was promptly submitted by the District and 
Reclamation plans to complete its review by early November.
                                 ______
                                 
   Responses of Richard W. Atwater to Questions From Senator Bingaman
    Question 1. (S. 1054/H.R. 122--Inland/Cucamonga). You note that it 
is imperative for Reclamation to increase funding through Title XVI to 
assist in meeting critical water supply problems facing the arid 
southwest. What are the implications of Reclamation not increasing 
support for Title XVI projects?
    Answer. The key federal water policy issues that are impacted by 
the Bureau of Reclamation not adequately funding the Title XVI Program 
are clearly the potential for having an increase in significant water 
conflicts and economic impacts from water supply shortages throughout 
the western States. Water recycling, reuse and reclamation is widely 
recognized by national experts on water policy as the key ``new water 
supply for many regions of the US and worldwide'' (USGS Circular 1279, 
EPA Guidelines on Water Reuse (2006), Dept. of the Interior Water 2025 
Program (2002), CalFed Bay Delta Program EIR/EIS (2001), and the 
Colorado River Basin States augmentation studies). The era of new dams 
and large importation aqueducts from one river basin to another river 
basin are over. Title XVI represents the future solutions to our 
complex water problems in the West. As documented by the Council on 
Environmental Quality and the Congressional Research Service reports to 
Congress last year on the Title XVI program at the Subcommittee's 
hearing in April of 2006, the USBR Title XVI Program is the only 
federal program that is focused on developing new technology to reuse, 
recycle and reclaim impaired water sources for beneficial uses 
(including use of desalination technologies like reverse osmosis 
membranes). By comparison USEPA in its Clean Water and Safe Drinking 
Programs annually budgets between $700 million and $1 billion for 
development of new technologies and funding of local infrastructure 
projects. The current $10 to $12 million in USBR budgeting for Title 
XVI represents about 1 percent of the total USBR annual appropriations. 
I am recommending that the historic funding levels at the 5 percent 
level should be supported by Congress to ensure the adequate 
development of water recycling and desalination technologies.
    The implication of business as usual from USBR would result in a 
historic failure of the Federal ``partnership'' role with States and 
local governments to address the critical water needs throughout the 
western arid states and to fund research and applied technology to 
advance the development of implementing innovative solutions to complex 
regional and multi-state water problems. USBR has historically been a 
leader for many decades on advancing technology to more efficiently use 
water to enhance the economic and environmental sustainability of 
regions throughout the western US. I urge Congress to reinvigorate that 
``leadership'' vision at the Bureau of Reclamation.
    Question 2. What are the federal responsibilities/interests 
involved in Title XVI?
    Answer. Congress in 1992 with the passage of Title XVI of PL 102-
575, the Reclamation, Wastewater and Groundwater Study and Facilities 
Act, and then in the expanded authorization in 1996 with the 
Reclamation, Recycling and Conservation Act (PL 104-266) clearly 
authorized and encouraged the Bureau of Reclamation to work in 
partnership with the States and local governments to develop recycling 
and desalination technologies to address the critical water problems 
facing the western US. It has been well documented that most of the 
major river basins in the western US are facing critical water 
shortages (US Department of the Interior Water 2025 Report in 2002) and 
severe competition for water resources has caused multiple problems: 
including endangered species impacts, clean water act violations, 
public lands, tribal issues, water rights problems (e.g., Interstate 
Compacts and treaty issues), and other significant federal policy 
implications. For example, addressing watershed ecosystem needs and the 
recreational demands to preserve instream flows in many river basins 
requires an effective strategy of making every gallon of water be 
efficiently used and reused again and again!
    Title XVI Program cost sharing at no more than $20 million per 
project and with only a 25 percent federal share of the total capital 
costs without any operation and maintenance responsibilities is by far 
the most cost effective Federal water resources program. Therefore, I 
would suggest without providing herein further documentation in greater 
detail that the federal nexus for adequately funding the Title XVI 
clearly has been provided in the hearing record to the Committee. Since 
Secretary Manuel Lujan initiated the program in 1991 and then with the 
original authorization of Title XVI in 1992 lead by the Committee on 
Energy and Natural Resources has had extensive testimony on the 
national benefits and relative cost effectiveness of this unique 
federal partnership to develop new water recycling, reuse and 
desalination supplies that solve complex water problems.
    Question 3. If federal support is not immediately forthcoming due 
to the backlog of projects, will the Inland Empire and Cucamonga 
projects still be constructed given that the planned federal 
contribution represents only 10% of the overall cost?
    Answer. The Inland Empire Utilities Agency has collaborated closely 
with the Bureau of Reclamation on the development the Chino Groundwater 
Basin watershed plan since 1992 in coordination with the State of 
California, the Metropolitan Water District and the Santa Ana River 
Watershed Project Authority (SAWPA) as referenced in my written 
testimony submitted to the Committee on August 1, 2007. IEUA has 
received funding from all of these other partners and IEUA probably 
would proceed with implementation without the Bureau of Reclamation's 
10 percent cost share ($20 million cap) but it would cause delays in 
implementing the recycled water projects because of a shortfall in 
funding during the next few years. The federal government through the 
modest increase in funding of Title XVI projects can cost-effectively 
assist in addressing the current severe drought shortages facing the 
Colorado River Basin States and the CALFED Bay Delta Program ``crisis'' 
being litigated in State and Federal courts this summer. All efforts to 
efficiently reuse and recycle water should be encouraged by the Bureau 
of Reclamation.
    My suggestion to Congress is that if the Bureau of Reclamation 
would increase its funding of the Title XVI from the current 1 percent 
of its total budget to 5 percent of its total budget then the issue of 
backlog is addressed. Secondly the national economic benefit of that 
Title XVI ``5 percent'' investment in solving water problems throughout 
the western US would be greater than the benefits of new supplies 
resulting from the remaining 95 percent of the Bureau of Reclamation's 
budget because it would develop about 1 million acre-feet of new 
supplies throughout the western US.
                                 ______
                                 
    Responses of Gary W. Darling to Questions From Senator Bingaman
    Question 1. (S. 1475/H.R. 1526--Bay Area Water Recycling). 
Reclamation indicates that 4 of the projects in the Bay Area Program 
have not yet met the feasibility criteria under its guidelines. Can you 
describe where those four projects (Antioch; North Coast County; 
Redwood City; and South Santa Clara County) are in the process, and how 
long you think it will take to meet the feasibility criteria? Has any 
feasibility analysis been completed for the Redwood City and North 
Coast County projects?
    Answer. Antioch Recycled Water Project.--The Antioch Project has 
met all feasibility requirements, with the exception of final 
clarifying responses to USBR's Engineering Review and final signoff/
concurrence from Reclamation's Office of Program and Policy Services. 
NEPA has been completed for the Antioch Project. Final concurrence that 
the project has met all of the feasibility criteria is expected in 
September 2007.
    Pacifica Recycled Water Project.--The North Coast County Water 
District's Pacifica Recycled Water Project was reviewed by USBR in 
2004, and found to be missing 2 of the 9 feasibility requirements. NEPA 
compliance has not yet be initiated, and the plan provided fell short 
of meeting financial capability requirements. At the time, NCCWD did 
not yet have a firm financial commitment from the SWRCB, the city, and 
NCCWD documented. The project has received state grants totaling $2.1M, 
and NCCWD/SFPUC has been approved for an SRF loan for the remainder of 
the local share. The SFPUC is funding 78% of the local share for the 
project, and NCCWD is committed to funding 22% of the local share. 
NCCWD has not yet initiated NEPA review for the project, but it is 
anticipated that a FONSI can be signed within 3 months of the 
initiation of the NEPA work with Reclamation.
    Redwood City Recycled Water Project.--The Redwood City project was 
reviewed by USBR in 2004, and found to be missing 2 of the 9 
feasibility requirements--financial capability and NEPA compliance. 
Since that review, Redwood City has provided additional documentation 
regarding financial capability. Redwood City has also approached 
Reclamation about completing NEPA, and the City is currently evaluating 
timing for NEPA compliance. In their current form, the USBR Title XVI 
Draft Directives do not require NEPA compliance prior to a positive 
feasibility determination. Redwood City's adopted Mitigated Negative 
Declaration provides compliance with CEQA, so it is anticipated that a 
FONSI can be signed within 3 months of initiation of the NEPA work with 
Reclamation.
    South Santa Clara County (Gilroy) Recycled Water Project.--The 
Santa Clara Valley Water District (SCVWD) submitted the South County 
Regional Wastewater Authority (SCRWA)/SCVWD joint South County Recycled 
Water Plan to Reclamation in February 2005, and in July 2005 SCVWD 
began preparing CEQA/NEPA documentation for the proposed project. In 
October 2005, SCVWD began discussions with USBR regarding sponsorship 
for NEPA compliance on the project. In USBR's December 2005 review of 
all feasibility documentation provided, Reclamation noted that the 
project met most of the Title XVI feasibility criteria, but SCVWD would 
need to complete NEPA and provide more detail on the engineering cost 
estimates in order to meet all of the feasibility requirements.
    Since then, Reclamation has reviewed SCVWD's draft technical 
studies for the project's EIR/EIS and has provided review comments. 
SCVWD and USBR have prepared a draft contributed funds agreement to 
complete NEPA and have USBR provide detailed engineering costs 
estimates in order to meet all feasibility requirements. The draft 
agreement has been routed for Reclamation's management approval.
    Because the South County/Gilroy project required preparation of an 
EIR, it may take up to 6 months to complete NEPA for the project once 
the agreement is formally initiated. SCVWD and USBR anticipate that a 
FONSI will provide NEPA compliance for the project.
    Question 2. Have the necessary funding arrangements been made by 
all the participating communities to cover the local share of the $110 
million in estimated costs? What are the implications if federal 
funding is not available in the short-term?
    Answer. Each of the projects included in the Bill must show 
Reclamation proof of their capability to provide the full local share 
of the $110M in local costs prior to a positive feasibility 
determination. To date, the Antioch Recycled Water Project, Palo Alto/
Mountain View Project, Pittsburg Recycled Water Project, and the 
Redwood City Recycled Water Project have all provided satisfactory 
evidence to USBR documenting the funding arrangements made to cover the 
local share.
    Some projects (including Pacifica and Palo Alto/Mountain View) will 
be utilizing State Revolving Fund loans in order to get their projects 
into construction in time to take advantage of State Grant commitments 
with the State mandated timelines established in their grant 
agreements. This loan will have to be repaid, and the Cities are 
depending on a federal partnership to help do so. The Delta Diablo 
Sanitation District Board has agreed to ``front'' the federal cost 
share for the Antioch and Pittsburg Projects, allowing for future 
reimbursement of the federal cost share. Each of the sponsoring 
agencies have determined that the projects must move immediately 
because of anticipated drought conditions, and have taken out loans or 
made alternative funding arrangements to get the projects into 
construction.
    Still, the unavailability of Federal funding in the short term has 
the potential to ``make or break'' a project that depends on City 
Capital Improvement Program and State Grant commitments. The projects 
simply cannot be postponed for years, especially when significant local 
commitments (which are constantly in competition with education, 
transportation, housing, and other local priorities) and State 
commitments (with strict deadlines) have already been made.
                                 ______
                                 
      Responses of Larry Groth to Questions From Senator Bingaman
    Question 1. (H.R. 609--Central Texas). Earlier this year you sent a 
letter to Chairman Bingaman indicating that the communities in Central 
Texas had already engaged in permitting activities for the Project and 
made financial arrangements for construction and long-term O&M. Is the 
Project ready to go from a state and local perspective, including the 
necessary permits and financing arrangements? Is federal funding 
necessary to move forward?
    Answer. The project is ready to go from a local perspective; all 
necessary State permits are either in the application preparation or 
regulatory agency review stage.
    The necessary financing and legal arrangements have been completed. 
Engineering studies are also complete. The seven cities comprising the 
regional wastewater system have approved an inter-local agreement to 
move forward with the implementation and operation of the project. Each 
member city has made arrangements to finance its pro rata share of the 
project. Permit application with the Texas Commission on Environmental 
Quality is underway for one satellite location and preparatory work 
completed for the other location.
    Without federal funding, the project will have to be modified to 
remove the conservation and water reuse components. Only the treatment 
and discharge components will move forward without federal funds.
    Question 2. Do you agree with Reclamation's assessment that the 
Project has not yet proved to be feasible? When do you plan on 
submitting all available information to Reclamation? How will 
Reclamation's assessment of the project's feasibility affect the 
decision to go forward from the local perspective?
    Answer. Yes, in the sense that a formal Feasibility Study has not 
been completed in accordance with Bureau of Reclamation guidelines. 
However, an Overview Report of the project that addresses in summary 
fashion the major requirements listed in the Reclamation guidelines for 
a Feasibility Study has been submitted to the Area Office in Austin, 
Texas and reviewed by the Reclamation staff. This report confirms the 
need for and the feasibility of the reuse and recycling project. 
Preliminary engineering studies have confirmed the technical 
feasibility; and, the executed inter-local agreements have confirmed 
the legal and financial foundation for the project to proceed.
    We anticipate providing the formal Feasibility Study as soon as 
financing can be arranged for the Study. The report should be done 
during the next fiscal year.
    The Reclamation decision on the project feasibility will be an 
important consideration to the regional system in determining whether 
or not to proceed with any aspects of the project that Reclamation 
should determine not to be feasible.
                                 ______
                                 
        Response of Bill Long to Questions From Senator Bingaman
    Question 1. (S.1472--North Bay Water Reuse). You state that the 
feasibility study and environmental work for the North Bay program are 
not expected to be completed for almost a year and a half. Has the 
North Bay Authority identified specific projects that are to be 
constructed under the Program? If so, how many do you expect to 
construct, and what is the expected cost of those projects? Please 
identify by specific project.
    Question 2. Has the financing already been put in place to pay for 
the local communities' expected 75% share of the projects? If not, what 
is the process to be followed to ensure local funding is available, and 
how long will the process take?
    Answer. We have 9 projects to be constructed under Phase 1 and they 
provide benefits to four implementing agencies: Las Gallinas Valley 
Sanitary District, Novato Sanitary District; Sonoma Valley County 
Sanitation District and Napa Sanitation District. If you would please 
refer to the attached table entitled ``North Bay Water Reuse Program 
Summary of Phase 1 Local Projects'',* you will also find a breakout of 
the federal, state and local costs associated with each project and a 
Program total of $98,378,000.
---------------------------------------------------------------------------
    * Table has been retained in subcommittee files.
---------------------------------------------------------------------------
    The federal authorization for feasibility, environmental and 
construction cost-share funding is a cornerstone in the financial 
success of this project and will greatly facilitate our ability to 
secure and leverage state and local funds in a timely manner.
    The state cost share for these projects will likely come from 
Proposition 84 that was passed in 2006. Specifically this bond measure 
has $1.5 billion in funding for water quality projects and $580 million 
for projects that support sustainable communities. It is anticipated 
that the program guidelines and first round of grant funds will be 
available sometime in 2008.
    The local cost share will be specific to each of the projects. As 
several of them have regional benefits, the members may partner with 
each other and or their respective county's to implement them. As the 
agencies are all public entities they have diverse assessment 
capabilities and several financing options available to them.
    All financial tools, including but not limited to connection fees, 
local revenue or general obligation bonds and benefit assessment 
districts are under consideration and included in the economic and 
financial analysis being conducted in the final stages of the study. 
The financing strategy is scheduled to be completed with the other 
planning documents in a year and a half.
                                 ______
                                 
    Responses of Randy A. Record to Questions From Senator Bingaman
    Question 1. (H.R. 30--Eastern Municipal). You state that the 
recycled water provided by your project will cost $110/acre-foot--
approximately 20% of the cost of imported water (estimated at $574/
acre-foot).
    Answer. Eastern Municipal Water District's (EMWD) operation and 
maintenance cost for recycled water is $110 per acre-foot, which is 20 
percent of the current price of $574 an acre-foot for imported water. 
If federal funding is granted, the capital costs for H.R. 30 recycled 
water amounts to $165 an acre-foot over the life expectancy of the 
project. If the federal government does not contribute any funding for 
this project, the capital costs are an additional $55 an acre-foot, or 
$220 an acre-foot.
    Question 2. Will the recycled water reduce the demand for imported 
water, or is it simply needed to keep up with new demands in your 
service area?
    Answer. The recycled water provided by H.R. 30 will reduce the 
imported water needs for existing and new demands. Recycled water is an 
important element for the water supply reliability in the semi-arid 
regions of the nation. Recycled water reduces the demand for imported 
water by providing affordable water for irrigation, increasing the 
longevity of agricultural industry in these regions. By using non-
potable supplies, such as recycled water, EMWD has been able to reduce 
demand on potable and non-potable imported water supply.
    Managing new demands is a major concern not just for EMWD but for 
the entire State of California. To effectively provide reliable water 
supply, water purveyors in California document the adequacy of their 
water supply by preparing a Water Supply Assessment Report as required 
by Water Code Section 10910 et seq. and Government Code section 
66473.7. Riverside County is one of the fastest growing areas in 
Southern California and EMWD provides an assessment of how it can meet 
projected water demands associated with its growth. The recycled water 
generated as a result of future growth is anticipated to play an 
important role in the water supply reliability of EMWD's service area.
    Question 3. Do you agree with Reclamation's assessment that all 
necessary studies to determine the project's feasibility have not been 
completed? Is so, when do you expect to complete those studies?
    Answer. The final feasibility report was submitted on July 25 and 
the Bureau has 90 days to review the report. However, Bureau staff 
anticipates completing their review in shorter time than the prescribed 
90 days. The feasibility study for the recycled water project was 
prepared with the guidance and assistance of Bureau of Reclamation 
staff. A draft feasibility report was submitted in early July for 
preliminary review and Bureau staff indicated that there was adequate 
information within the study report to meet Reclamations Guidelines.
    Question 4. If federal funding assistance is not available in the 
short-term, will Eastern Municipal still proceed with the Project?
    Answer. If federal funding is not available, some, but not all, the 
projects will be completed when they become necessary to provide 
service, and water is available during the peak months. Obviously it 
would be more cost effective to accomplish these projects on a large 
scale basis, rather than one or two components each year as funding 
becomes available.
    EMWD has identified over one billion dollars for new infrastructure 
needed during the next five years. We have already reduced these 
requirements by several hundred million dollars, but the one billion 
dollars of needs still may not be able to be financed in it's entirety. 
With the enormous growth EMWD has experienced in the past five years, 
our immediate priorities are to provide service to new developments 
which often leaves little funding available to accomplish long term 
water management projects.
    The endorsement of the project by the Federal Government through 
the Bureau of Reclamation and Congressional appropriation process 
provides an important validation of the project which may assist the 
District in obtaining funds from other sources.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                           Cucamonga Valley Water District,
                              Rancho Cucamonga, CA, August 1, 2007.
Hon. Jeff Bingaman,
Chair, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Subject: Letter of Support for S. 1054 & H.R. 122

    Dear Senator Bingaman: Cucamonga Valley Water District is a retail 
water and sewer agency, located in the western portion of San 
Bernardino County within the greater Santa Ana River Watershed, and 
provides water and wastewater services to more than 185,000 people in a 
47 square mile area. Our region and is one of the fastest growing 
regions in the State of California if not in most of the nation. Over 
the past five years our agency has averaged over one thousand new 
connected water and sewer customers. By the year 2020 our population is 
expected to reach approximately 230,000 people.
    Our agency receives approximately 50% of its water supply from the 
Inland Empire Utilities Agency a member of the Metropolitan Water 
District of Southern California. Approximately 40% of our locally 
developed water supply comes from groundwater produced from within the 
Chino and Cucamonga Basins. The remaining 10% of our supply is surface 
water collected from our local San Gabriel Mountains. Our present 
average daily water demand is 50 million gallons per day (MGD), with 
wastewater flows averaging 11.5 million gallons per day. By the year 
2020 our agency will need an additional 20,000 acre feet of new water 
supply to meet our growing demand.
    CVWD is a member of the Chino Basin Regional Wastewater Treatment 
Program managed and administered by the Inland Empire Utilities Agency. 
Within the geographic boundaries of our service area there will be over 
26,000 acre feet of treated or recycled water at ultimate build-out 
available for secondary reuse such as landscape and industrial use as 
well as for future use as groundwater replenishment.
    One of the ways in which we will meet this growing demand is 
through the utilization of recycled water. With the rapid amount of 
growth throughout the region and a thriving economy in the Inland 
Empire, recycled water is critical to ensure an adequate water supply 
for our customers now, and in the future. Far beyond the local factors 
that necessitate our agency developing the appropriate recycled water 
infrastructure we face a greater risk from factors outside of our 
region. A major breech in the Sacramento-San Joaquin Delta levee system 
would have disastrous effects paramount to those witnessed during 
Hurricane Katrina. The economic engine of the Inland Empire, an area 
known as one of the fastest growing regions of the nation, would come 
to a screeching halt for issues that we have no control over.
    Environmental issues also increase the vulnerability of our water 
supply. Most recently a number of court cases have placed into question 
the ability of the State of California Department of Water Resources 
authority to operate one of its pumping facilities due to environmental 
concerns over the Delta Smelt. The court cases were followed by DWR's 
proactive action to shut down the Banks Pumping Plant after sighting of 
the Smelt near and around the pumps which is critical for importing 
water to areas of Southern California, and to many other Northern 
California communities.
    In addition to the water infrastructure issues that confront 
California, climate change and the impact it will have across the 
southwest is a rapidly emerging concern. A number of reports have been 
published about the impacts of climate change and the corresponding 
impacts to our water supply. According to the 2006 summary report from 
the California Climate Change Center, California's temperatures are 
expected to rise 4.7 to 10.5 degrees by the end of the century. These 
temperature increases would have wide spread consequences including 
substantial loss of snow pack, increased risk of large wildfires, 
reductions in the quality and quaintly of certain agricultural 
products, and one of the worst droughts this region has seen in 
decades.
    Our philosophy of making sure that ``every drop counts'' recognizes 
the value of efficient water use. Recycled water is a critical and 
extremely valuable component of our future and as a preface to our 
planning process we have established four resource management 
objectives: Maximize the beneficial use of recycled water, decrease our 
reliance and dependence on imported water from the State Water Project, 
provide maximum flexibility of all supply opportunities, and, develop 
energy efficient delivery systems. An ancillary benefit of using 
recycled water is the energy savings in comparison to drinking water. 
It is well known fact that nearly 20% of California's energy 
consumption is from moving water in and about the State. Recycled water 
uses substantially less energy which is good for our local community 
but also good for all of California.
    Another impact of the development and use of recycled water is the 
reduction in greenhouse gas emissions. With full implementation of the 
projects proposed by Cucamonga as well as within the Inland Empire 
Region, it is estimated that 100,000 tons of greenhouse gas emissions 
will be eliminated. with only a small percentage of the total recycled 
water available being used in California (roughly 10%) there is a huge 
potential for additional savings and greenhouse gas reductions from 
addressing development of recycled water supplies.
    Our agency relies on the Inland Empire Utilities Agency to treat 
and deliver recycled water to where we can deliver it to our customers. 
However, much of our jurisdiction is built on the alluvial fan of the 
San Gabriel Mountains requiring extensive pumping and energy cost to 
move water up the foothills to where much of our need exists. 
Additionally the water conveyance facilities required to transport the 
treated water to the area of need are non-existent requiring extensive 
infrastructure investment and as a consequence increase costs to our 
ratepayers. Given the condition of the State's electricity situation 
this becomes a major obstacle to reuse of recycled water.
    Our innovative strategy calls for the sighting of small, localized 
satellite treatment plants adjacent to where the demand exists. This 
strategy will allow us to use the existing regional system to meet the 
peak demands of the gravity flow areas. A unique feature of our 
satellite wastewater treatment plant program is that they will be sized 
according to the immediate needs of anywhere between 0.5 mgd and 2 mgd. 
Utilizing this strategy we will be able to develop over 5,000 acre feet 
of new recycled water supply by 2010. A variety of new customers have 
been identified and support for this initiative is very high.
    The immediate benefits are obvious. The challenge of serving areas 
in the higher elevations would require lifting the water 1,500 feet, 
which would require an enormous amount of energy use. Locating the 
satellite plants where the need exists allows us to avoid energy use 
associated with pumping as well as avoid the use of imported water 
previously required to meet the demands of the existing area. 
Construction of new or expansion of existing regional wastewater 
treatment facilities is deferred saving valuable resources. The 
innovative technology incorporated into the treatment process is itself 
extremely energy efficient and creates additional cost savings for 
additional community facilities. The energy savings attributed to 
development and use of recycled water is approximately 3,000 kWh per 
acre-foot, which is equivalent to 34 MW per year. During times of 
drought we will now have complete reliability and dry-year availability 
which is a critical element of ``drought-proofing'' our region.
    The implementation of our unique wastewater management strategy 
expands our existing water supplies and is consistent with all 
regional, State and Federal programs. From the Federal perspective it 
meets the goals of the CALFED program through development of a new 
resource opportunity. Our project is consistent with the Bureau of 
Reclamation's Southern California Water Reclamation and Reuse 
Feasibility Study which concluded that water recycling projects in 
Southern California could produce almost 450,000 of new recycled water 
by 2010. Our project coupled with those proposed by the Inland Empire 
Utilities Agency will produce approximately 100,000 acre-feet annual 
over the next decade.
    Our project, S. 1054/H.R. 122 has fully complied with the U.S. 
Bureau of Reclamation's guidelines for Title XVI projects and the 
feasibility study was formally approved in October 2006 by the U.S. 
Bureau of Reclamation. Our project is included within the Inland Empire 
Utility Agency's Regional Water Recycling Feasibility Study, and has 
obtained all environmental and regulatory approval, including the 
California environmental Quality Act (CEQA) and NEPA.
    The State of California's Water Recycling Task Force identified the 
need for 1.5 million acre feet of new recycled water by the year 2030. 
Regionally, our project realizes multiple benefits such as conformance 
with the Metropolitan Water District of Southern California's 
Integrated Resource Plan, the Santa Ana Watershed Project Authority's 
watershed program the Chino Basin Watermaster's Optimum Basin 
Management Plan and the goals of the Inland Empire Utilities Agency 
Regional Recycled Water program.
    As previous indicated, our watershed is one of the fastest 
urbanizing watersheds in the Nation. We do not expect to receive more 
water from the State Water Project, and may well get less that 
originally thought. Nevertheless, we can expand our existing water 
supplies through development of local supplies to ``drought-proof'' our 
water district.
    The S. 1054 & H.R. 122 bills authorize the Secretary of the 
Interior to participate in the Inland Empire Regional Recycling Project 
and in the Cucamonga Valley Water District recycling project. The 
Federal investment represents an approximate 10% cost share which will 
provide valuable funding assistance which will be leveraged with State 
and local funding of approximately $30.0 million of new capital 
investment in innovative technology to develop new water supplies.
            Sincerely,
                                         Robert A. DeLoach,
                                               General Manager/CEO.
                                 ______
                                 
                              Orange County Water District,
                                Fountain Valley, CA, July 31, 2007.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Re: H.R. 1175

    Dear Mr. Chairman: On behalf of the Orange County Water District, I 
respectfully request the following statement be entered into the formal 
record of the Subcommittee on Water and Power's August 1, 2007 hearing 
on H.R. 1175, a bill to authorize funding for the Orange County Water 
District's Groundwater Replenishment (GWR) System under Title XVI. We 
thank the subcommittee for the opportunity to provide this testimony in 
support of the project. We hope that the subcommittee will act swiftly 
and approve H.R. 1175.
    As a matter of background, OCWD was formed in 1933 and today is 
responsible for managing and protecting the vast groundwater basin 
under north and central Orange County. The groundwater basin provides 
over two-thirds of the water supply for 2.3 million people in our 
region which includes the cities of Anaheim, Buena Park, Costa Mesa, 
Cypress, Fountain Valley, Fullerton, Garden Grove, Huntington Beach, 
Newport Beach, Irvine, La Palma, Los Alamitos, Orange, Placentia, Santa 
Ana, Seal Beach, Stanton, Tustin, Villa Park, Westminster, and Yorba 
Linda. Without the careful management of this basin, the hardships we 
are enduring because of the ongoing drought that is gripping the 
western United States would be exacerbated beyond belief. Our dramatic 
accomplishments in conservation and other structural changes our 
communities have adopted have made it possible to lessen the hardships. 
However, it is not enough to address the future demand for water when 
you consider population growth coupled with loss of water supplies due 
to the twin challenges of drought and environmental contamination. We 
believe that only through bold and creative partnerships can we develop 
an effective response.
    The U.S. Bureau of Reclamation Title XVI program represents a key 
element of any partnership. It is important to highlight the fact that 
this is the only federal program dedicated to the development of water 
recycling projects. It offers communities like OCWD's service area the 
opportunity to plan, design and construct projects that will protect 
the federal investment in the west and ensure a stable and sustainable 
economy while preserving our natural resources. I would note that our 
project, the GWR System has the ability to provide more than 133,000 
acre feet of reclaimed water when fully operational. As California and 
especially Southern California seek solutions to ensure compliance with 
the QSA, HR. 1175 plays a central role in providing a means to provide 
a reliable and safe water supply.
    It is important, in Southern California, that we realize the future 
of water reliability lies in the ability to supplement our imported 
water supplies with local water supply development such as recycled 
water. It is important to note that this priority involves multiple 
uses such as irrigation, industrial and indirect potable reuse. The 
Title XVI program is important to achieve this goal.
    From my humble perspective as one of the pioneers of implementing 
the original law, and an ardent supporter of recycled water, let me 
assure the subcommittee that the Title XVI Program works. It provides 
value. And, it creates new water. Given the economic vitality of the 
West (California alone is the 5th largest economy in the world; makes 
up 13% of the nation's GDP; and generates $1.4 trillion in gross state 
product) and the federal mandates that state and local communities must 
meet to assure a clean and safe water supply, a legitimate federal role 
does exist. Let's be clear on one important point; the federal 
assistance that is provided through Title XVI delivers benefits by 
reducing borrowing costs, enhancing public acceptance of a project, and 
providing a platform for the speedy transfer of innovative technologies 
that can be used elsewhere in the nation.
    Orange County Water District is currently completing the first 
stage of construction of the Groundwater Replenishment System. This 
visionary indirect potable reuse project's first stage will be 
operational in the November 2007 and will produce 72,000 acre-feet per 
year (enough water to meet the annual needs of over 140,000 families) 
of new water for the 2.3 million residents of north and central Orange 
County. The Project uses state-of-the-art treatment, monitoring and 
groundwater replenishment technology. This technology is used to insure 
high quality water is produced from the project. All aspects of the 
project are monitored to insure quality objectives are met and 
maintained. The product water will be recharged into the Orange County 
Groundwater Basin increasing the sustainable yield from the basin. The 
Project not only provides direct benefits to the rate payers within our 
service area but it provides regional benefits as well. Recycled water 
is a drought proof supply that is available even in the driest years. 
Having recycled water available enables OCWD to make conserved and 
imported water available to other Southern California water agencies 
that are not as fortunate in their water supply portfolio during dry 
years. In addition, to the extent local water supply can be created 
than it relieves the pressure to import water from the Colorado River 
into the Southern California Region.
    H.R. 1175 will enable the District to achieve its vision of 
providing more than 130,000 acre feet annually of recycled water. H.R. 
1175 would provide a federal cost share of less than 10.8% of the total 
project's costs. It is important to note that unlike most Title XVI 
project requests, the GWR System represents a collaborative and 
regional approach. With our partner, the Orange County Sanitation 
District, we are addressing the needs of more than 3 million citizens 
in more than 20 communities throughout the Orange County region. No 
less important, this project will accomplish multiple tasks. While we 
note the primary purpose of water supply, the GWR System will allow us 
to address saltwater intrusion into the aquifer and minimize ocean 
discharge of treated effluents.
    The GWR System project is notable also for the fact that it 
responds to an immediate need. Unlike many projects that are designed 
for future demand, the GWR System is responding to immediate needs. 
When operational, every gallon of produced water will be utilized.
    The total capital cost for the GWR System project is $480.9 
million. H.R. 1175 would authorize a grant of $51.8 million which in 
turn will help to leverage $72 million in State funds and $388 million 
in local rate payer dollars. The federal cost share is critical as it 
provides a mechanism to solicit State grant funds and importantly 
provided a level of political acceptability and project legitimization 
that enable our local decision makers to move forward with the project. 
I would point out that H.R. 1175 would only provide 10.8% of the 
project's total cost.
    What would happen to the GWR System project without federal 
support? We would not have broad based community and political support 
for the project as we currently enjoy. As we engage in outreach about 
the project we start with the projects supporters; the federal 
government--they provide money and technology transfer; the state of 
California--they provide money and regulatory oversight; local 
government--they provide the majority of the money and the local will 
to implement the project. All six of Orange County's congressional 
leaders support the GWR System project. California's two United States 
Senators support the GWR System project. That support is backed up by 
federal dollars. This is the foundation upon which we have built 
community, environmental and business support for the GWR System 
project. Unlike some recycled water projects which unfortunately were 
built and then not operated due to lack of community support. I have 
100% confidence that the GWR System project will be successfully 
producing recycled water this Fall and the cornerstone of that 
confidence starts with a small federal investment.
    I noted earlier, that H.R. 1175 is critical for several reasons. In 
California we have a mandate to reduce our use of Colorado River water. 
In Arizona and Nevada there is a similar mandate to responsibly use 
Colorado River supplies. In Texas, the Ogallala Aquifer and watershed 
supply shortages are creating the need for recycled water supply 
development. In Florida, there is a critical groundwater supply 
shortage. In New Mexico, water supplies are extremely limited from the 
Rio Grande River and other local watersheds. The common theme is that 
regional water supplies with direct federal involvement must be 
augmented and enhanced through local water supply development of 
recycled water. H.R. 1175 addresses this demand. In fact, we suggest 
that H.R. 1175 is more than local project. It represents an important 
element in ensuring inter-regional cooperation in meeting the mandates 
of reducing reliance on the Colorado River.
    The federal government has established significant mandates for 
ecosystem maintenance and restoration. Fisheries, in-stream flows, and 
habitat development all take water. Water that is typically being 
redirected from urban uses. At the same time, our water demands are not 
decreasing and neither are our future water supply projections. New 
water supplies that are environmentally sustainable must be developed 
if we are to meet our ecosystem mandates. Recycled water is one such 
supply. If the federal government is instrumental in establishing these 
ecosystem mandates, it has a responsibility to support local efforts to 
meet these mandates. H.R. 1175 does this by providing the necessary 
funds to implement alternative water supply development.
    H.R. 1175 is also important for the role it supports in technology 
transfer. The GWR System will be a national model on how to develop and 
implement a project that uses state of the art membrane technologies to 
produce high quality water. Large results can be gained at the local 
and regional levels with relatively small investments from the federal 
government. No single local water agency has the financial resources or 
expertise to research and investigate membrane processes, brine 
concentration technologies, the health risks of pharmaceuticals or 
alternative power technologies to name a few areas of interest. 
However, the federal government has the capability to bring disparate 
agencies together in cost sharing arrangements to jointly work on 
technology improvements that will make recycled water development even 
more cost effective and reliable. Again, a small federal investment 
leverages local dollars and technical talent for significant water 
resources gains. By supporting this project, H.R. 1175 will make it 
possible for the lessons learned at GWR System to be transferred to 
other western states.
    In closing I would like to express the Orange County Water 
District's appreciation for the subcommittee's willingness to consider 
H.R. 1175. We hope that upon completion of the hearing, markup of H.R. 
1175 will be scheduled expeditiously to permit timely enactment. The 
GWR System is a very valuable program that will, when fully 
implemented, meet the needs of multiple regions. The GWR System, a 
Title XVI project, will not only help to drought proof Orange County by 
creating a new water supply, but it will also reduce pressure on 
Colorado River supplies, it will facilitate technology improvements, it 
enhances the science of groundwater monitoring and it provides 
opportunities for technology transfer and research.
    Again, it is an honor to submit this testimony to the subcommittee. 
If you other members of the subcommittee have any questions on H.R. 
1175 or the GWR System, please let us know. We would be happy to 
provide any clarifications for the record.
            Sincerely yours,
                                         Michael P. Wehner,
                                            Acting General Manager.
                                 ______
                                 
     Statement of the Santa Clara Valley Water District, on S. 1475
    Mr. Chairman and Members of the Subcommittee and staff, the Santa 
Clara Valley Water District (District) thanks you for the opportunity 
to provide written testimony on this very important water supply issue.
    We thank you for holding the hearing on S. 1475 on August 1, 2007 
on the Bay Area Regional Water Recycling Program Authorization Act of 
2007 to fund regional recycled water projects in the San Francisco Bay 
Region in California.
    We also want to thank and express our District's appreciation to 
Senator Feinstein for introducing this critical water legislation which 
will help the San Francisco Bay Area region. Our District also thanks 
Senator Boxer, for being an original co-sponsor of this bill. This 
regional approach taken by the Bay Area agencies ensures that potential 
projects with the greatest regional and statewide benefits get 
implemented.
    The Santa Clara Valley Water District is the comprehensive water 
resources management agency for Santa Clara County. The District was 
originally created in 1929 to respond to water supply problems. Because 
agriculture was a booming industry, the Santa Clara Valley was 
nicknamed the ``valley of heart's delight.'' But the downside of the 
booming agricultural industry was that groundwater resources were 
depleted and causing land subsidence--the ground was literally sinking. 
In response to the region's water supply problems, the District was 
formed to conserve water in reservoirs during the wet season for later 
release into groundwater basins or for use as surface water when it was 
needed. Since that time, our District's portfolio of responsibilities 
has grown and the District has been tasked with adding flood protection 
and stream stewardship to its mission.
    However, our District's core business is still to provide a 
reliable water supply to over 1.8 million residents and protect them 
from flooding dangers that are present in our region. This vital water-
supply mission includes managing Santa Clara County's significant 
groundwater basins in what is now known world-wide, especially in the 
high-tech industry as ``Silicon Valley.'' Last year, about 380,000 acre 
feet (124,000,000 gallons) of water was used in Santa Clara County 
alone. This use includes the fact that we have in place a very 
aggressive water conservation program saving more than 40,000 acre-feet 
of water last year.
    We are currently experiencing dry weather conditions in California 
and global climate change is impacting our water supply. The Sierra 
Nevada snowpack--which provides about 50-percent of the Valley's water 
needs--is dismally low this year. In addition, the effects of global 
climate change are expected to have greater impacts in the future, 
dramatically changing the precipitation and types of precipitation we 
receive each year. These current and future challenges mean we are in 
dire need of water projects that are immune to droughts or climate 
changes. Since the supply of water is limited, we believe recycled 
water is a resource that will continue to become more important in the 
future. We can only depend on local water supplies for about 50% of our 
water needs in a given year. The remainder we import from the Sierra 
Nevada through the Sacramento/San Joaquin Delta. The District receives 
both California Water Project and Federal Central Valley Project 
contract water. Bay-Delta environmental issues are influencing how much 
water our region can import from the Delta. Recycled water projects are 
important for us as well as for the rest of California and the Western 
States, because they provide a sustainable source of water and are the 
best alternatives to meet future demand. Without federal partnership in 
place, these recycled water projects are under funded and may not 
proceed.
    You heard oral testimony from the Bay Area Water Recycling 
Coalition representative, Mr. Gary Darling, General Manager of the 
Delta Diablo Sanitation District, at the Subcommittee hearing on August 
1, 2007. Mr. Darling testified on the need for the seven critical 
regional projects in this bill. The Santa Clara Valley Water District 
was one of 17 agencies that participated in the Bay Area Regional Water 
Recycling Program in the late 1990s and completed a Bay Area Recycled 
Water Master Plan in 1999. Since then, a number of recycled water 
projects have been built. In this package of seven projects for the Bay 
Area in S. 1475, two projects are within areas served by the District. 
Our District will now provide you testimony emphasizing these two 
regional projects.
    South Santa Clara County Recycled Water Project.--This project is 
sponsored by the District and the South County Regional Wastewater 
Authority which serves the Cities of Gilroy and Morgan Hill in southern 
Santa Clara County. This project will result in a yield of 
approximately 1,800 acre-feet of recycled water short term and 2,440 
acre-feet of recycled water long-term. It includes building 7.6 miles 
of recycled water distribution pipes, a 3 million gallon recycled water 
storage tank, and a 6 million-gallon-per day pump station. The 
customers for this project have already been identified and would be 
irrigation users such as parks, and industrial users for uses like 
cooling towers. Using recycled water will take these customers off 
groundwater wells, and leave the groundwater for drinking purposes. 
Currently, groundwater is the sole source of drinking water in south 
Santa Clara County. Having recycled water in this region will diversify 
our District's water supply management portfolio and also increase the 
reliability of our supplies.
    South Bay Advanced Recycled Water Treatment Facility Project--.This 
is a joint project with the District and the City of San Jose. This 
project involves constructing a treatment plant that will purify 
approximately 6 to 8 million gallons of wastewater per day. The plant 
will use state of the art technology which includes: microfiltration, 
reverse osmosis, and ultraviolet light disinfection. The end product 
will be very high quality recycled water. This project will allow for 2 
to 5 billion gallons of high quality water to be used for many existing 
water uses in the Cities of San Jose, Santa Clara, and Milpitas, and 
for potential future environmental uses like augmenting stream flows. 
It is important to note that expanding recycled water uses here will 
allow the community to save drinking water.
    Mr. Chairman, our region needs water supply solutions now. The 
District has continued partnerships with other regional agencies and 
cities to locally implement many recycled water projects. However, we 
are now in critical need for additional support in order to make these 
new projects a reality. We welcome the expansion of our regional 
partnership with the Federal Government to implement these projects.
    S. 1475 is critical in that it will enable us to augment our 
limited freshwater supplies. The vitality of our region is pulsing at 
its still furious beat, and we do not want the lack of water supplies 
to bring this vital, nation-wide economic engine to a standstill.
    The Santa Clara Valley Water District takes its role as water 
supply manager for Santa Clara County very seriously. The District, the 
Cities, and the local community, are all looking for water supply and 
water supply reliability solutions. Recycled water is just that 
solution. S. 1475 can be the tool that enables us to achieve this water 
supply and we very strongly urge your support for this legislation.

                                    

      

</pre></body></html>
